<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 108-623]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-623

                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2003

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-848                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                 ARLEN SPECTER, Pennsylvania, Chairman
BEN NIGHTHORSE CAMPBELL, Colorado    BOB GRAHAM, Florida
LARRY E. CRAIG, Idaho                JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
JIM BUNNING, Kentucky                JAMES M. JEFFORDS, (I) Vermont
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
LINDSEY O. GRAHAM, South Carolina    PATTY MURRAY, Washington
LISA MURKOWSKI, Alaska               ZELL MILLER, Georgia
                                     E. BENJAMIN NELSON, Nebraska
           William F. Tuerk, Staff Director and Chief Counsel
         Bryant Hall, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              

                                  Date
                                SENATORS

                                                                   Page
Specter, Hon. Arlen, U.S. Senator from Pennsylvania..............     1
Murray, Hon. Patty, U.S. Senator from the State of Washington....     2
Rockefeller, Hon. John D. IV, U.S. Senator from West Virginia, 
  prepared statement.............................................    30

                               WITNESSES

McClain, Tim S., General Counsel, U.S. Department of Veterans 
  Affairs; accompanied by Francis M. Murphy, M.D., Deputy Under 
  Secretary for Health Policy Coordination, Veterans Health 
  Administration.................................................     3
    Biographic Summary...........................................     1
    Prepared statement...........................................     5
    Response to written question submitted by Hon. Patty Murray..    28
Wiblemo, Cathleen C., Deputy Director for Health Care, Veterans 
  Affairs and Rehabilitation Commission, The American Legion.....     8
    Prepared statement...........................................     9
Hayden, Paul A., Deputy Director, National Legislative Service, 
  Veterans of Foreign Wars.......................................    13
    Prepared statement...........................................    13
Atizado, Adrian M., Associate National Legislative Director, 
  Disabled American Veterans.....................................    16
    Prepared statement...........................................    17
Blake, Carl, Associate Legislative Director, Paralyzed Veterans 
  of America.....................................................    19
    Prepared statement...........................................    20
Jones, Richard, National Legislative Director, AMVETS............    22
    Prepared statement...........................................    23

                                APPENDIX

Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
  prepared statement.............................................    33
Miller, Hon. Zell, U.S. Senator from Georgia, prepared statement.    34
Harnage, Bobby, National President, American Federation of 
  Government Employees, prepared statement.......................    34
Nygaard, Jane, President, AFGE Local 3669 and Jay Price, 
  President, AFGE Local 1969, prepared statement.................    37
Hansen, Roy S., Adjutant, Disabled American Veterans, Department 
  of Minnesota, prepared statement...............................    38
Schneider, Richard C., National Director, Veterans and State 
  Affairs, Non-Commissioned Officers Association of the United 
  States, prepared statement.....................................    38
Cullinan, Dennis, Director, National Legislative Service, 
  Veterans of Foreign Wars, prepared statement...................    38
Van Bergen, Steve, State Commander, Department of Minnesota, 
  Veterans' of Foreign Wars......................................    39
Corey, Thomas H., National President, Vietnam Veterans of 
  America, prepared statement....................................    39
Rochelle, Frederick, Former President, St. Paul Chapter, Vietnam 
  Veterans of America, prepared statement........................    39

 
                          PENDING LEGISLATION

                              ----------                              


                         TUESDAY, JULY 29, 2003

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:10 p.m., in 
room SR-418, Russell Senate Office Building, Hon. Arlen Specter 
(chairman of the committee) presiding.
    Present: Senators Specter, Rockefeller, and Murray.

           OPENING STATEMENT OF HON. ARLEN SPECTER, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Chairman Specter. Our lead witness today is Mr. Tim 
McClain, confirmed by the Senate as general counsel for the 
Department of Veterans Affairs on April 6th. Mr. McClain has a 
very extensive resume, which we will put in the record.
    [The resume of Mr. McClain follows:]
               biographic summary of tim s. mcclain, esq.
    Tim S. McClain was born in Johnstown, Pennsylvania on June 10, 
1948. He earned a Bachelor of Science degree from the United States 
Naval Academy in 1970 and served as a Surface Warfare Officer for his 
first 5 years of commissioned service. During tours in the Western 
Pacific, Mr. McClain was awarded the Navy Commendation Medal with 
Combat ``V'' for duty in Vietnam. In 1975 Mr. McClain was selected to 
participate in the Navy's Law Education Program. He attended California 
Western School of Law in San Diego, California received his Juris 
Doctor degree in 1978, and began service in the Navy Judge Advocate 
General's Corps. He is a member of the State Bar of California.
    Mr. McClain served as a military defense counsel, Head Claims 
Officer, and Head Legal Assistance Officer while stationed at Navy 
Legal Service Office, San Diego. In 1981 he served as Staff Judge 
Advocate for the Commanding Officer, Naval Air Station Miramar. In 1983 
he was assigned as department head and instructor at the Naval Justice 
School, Newport, Rhode Island.
    Mr. McClain attended training as a trial advocacy instructor and 
was instrumental in starting trial advocacy programs in the Navy 
patterned after the programs developed by the National Institute for 
Trial Advocacy (NITA). Mr. McClain was awarded the Meritorious Service 
Medal for his leadership at the Navy's law school. In 1986 Mr. McClain 
was assigned as a General Court-Martial Military Judge at Navy-Marine 
Trial Judiciary, Southwest and presided over hundreds of courts-
martial. He received his second Meritorious Service Medal upon his 
retirement from the military in 1990.
    Mr. McClain entered the private practice of law and joined a 
litigation law firm in San Diego, California. He specialized in 
defending professional negligence cases, especially medical and legal 
malpractice cases. Mr. McClain later joined an international management 
consulting firm and was assigned to work with mid-level managers of 
several Fortune 500 companies in implementing process and productivity 
improvements. Within 2 years he was a Director of Operations and 
supervising multiple projects. In 1999 Mr. McClain joined a small law 
partnership in La Jolla, California. He specialized in military 
administrative law, medical licensing matters, civil litigation and 
government administrative hearings.
    Mr. McClain is married to the former Lynn Hollyfield of Virginia. 
Mrs. McClain earned a bachelor's degree in Education from James Madison 
University and a Master's Degree in Counseling from Providence College. 
They have two sons, Scott age 27, and Brendan age 24, who reside in 
California.

    Chairman Specter. We are expecting to vote shortly, so we 
are going to have to stay on schedule with the 3-minute 
allocation, and I would ask all of the witnesses to focus on 
that, and when the red light goes on to terminate within the 
sentence. Mr. McClain, we start with you.
    Senator Murray. Mr. Chairman, would it be possible to make 
an opening statement?
    Chairman Specter. Of course, Senator Murray.

 OPENING STATEMENT OF HON. PATTY MURRAY, U.S. SENATOR FROM THE 
                      STATE OF WASHINGTON

    Senator Murray. Thank you, and I am sorry to interrupt, Mr. 
McClain, but it is a statement I really did want to get on the 
record.
    I want to thank you for convening the committee today, and 
welcome all of the panelists, but this afternoon I did want to 
focus this committee's attention on some late-breaking 
developments that are threatening many of the 700,000 veterans 
in Washington State.
    Under the CARES Initiative, the Department of Veterans 
Affairs asked its regional offices to study the health care 
needs of local veterans and to develop a plan to meet those 
needs, and the local experts in my region, which are 
Washington, Oregon, Idaho and Alaska, submitted their plans 
several months ago. It showed that enrollment is growing 
dramatically and that there are significant gaps in areas like 
primary care and specialty care.
    The VA sat on the report for several months and then last 
week, just 8 days before the release of their national report, 
the VA called the leaders in my region with some pretty 
shocking news and said they did not like the recommendations in 
the report. VA headquarters then ordered our regional leaders 
to include a new and troubling recommendation to close three VA 
facilities in Washington State, including American Lake in 
Tacoma and VA facilities in Walla Walla and Vancouver.
    This directive to regional VA leaders came last Wednesday 
in a phone call from the Secretary of Veterans Affairs, and the 
next day I sent a letter to Secretary Principi objecting to the 
VA's interference with this regional market plan and expressed 
my strong opposition to closing these three Washington State 
facilities.
    Frankly, I am pretty outraged at this proposal, and I find 
it particularly appalling that it came just 8 days before the 
deadline for the VA's national plan. We just had 8 days to 
respond to a plan that is going to impact thousands of 
Washington State veterans. This directive essentially ensures 
that the VA will include the closure option for the three 
Washington facilities in its national plan, and that is just 
unacceptable.
    Veterans in Washington State deserve more from the VA than 
just 8 days' notice that their facilities are in jeopardy, and 
we should not forget that there is a Federal law on the books 
since 1987 that prohibits changing the mission of the Veterans 
Administration Medical Center in Walla Walla.
    These last-minute suggested closures are going to hurt 
veterans in all three areas of my State. In the Puget Sound, it 
means that homeless veterans, veterans with mental health 
problems and veterans with spinal and brain injuries will lose 
an important facility at American Lake, which today cares for 
more than 46,000 veterans annually. Closure would cause demand 
on the Seattle VA to skyrocket and cause further delays in care 
which we already have beyond belief right now.
    In Vancouver, instead of the creative community-based 
partnerships proposed, the VA is potentially shutting this 
facility in the fastest-growing area of metropolitan Portland.
    In Walla Walla, veterans may lose a facility that was 
shifting to long-term care and some contracting out of other 
services. At the Walla Wall VA Medical Center, it is also one 
of the largest employers in that community and serves a 
population of approximately 69,000. Closure of the Walla Walla 
facility would leave area veterans 180 miles from the next 
center, Spokane, their VA Medical Center there.
    Mr. Chairman, Washington State veterans are having a 
terrible time getting the care they need, and instead of 
improving services, the VA is now exploring closing three 
critical facilities, and to me that is really unacceptable, and 
I am going to continue to speak up for the veterans that I 
represent. They certainly deserve better treatment than they 
are getting from this administration right now. So I want to 
raise those concerns today with Mr. McClain because I fear that 
the CARES process is really losing its legitimacy and that this 
committee needs to increase its oversight.
    We have to ensure that the CARES, and the work of the 
Department, and the Commission are transparent and accessible 
to veterans. The VA's stealth effort to potentially close these 
facilities in Washington State, despite the regional 
recommendations that were given to them, is a sign that the 
CARES process is a growing problem for the VA and for Congress.
    I am a co-sponsor of Senator Graham's legislation to allow 
for congressional review of the CARES recommendation. His bill 
will bring needed congressional input, I think, back into the 
CARES process.
    Mr. Chairman, our veterans deserve better than they are 
getting in Washington State, and I am going to hold this 
administration responsible for the way it has been treating the 
veterans that I represent.
    Thank you very much.
    Chairman Specter. Thank you very much, Senator Murray.
     Mr. McClain.

  OPENING STATEMENT OF TIM S. McCLAIN, GENERAL COUNSEL, U.S. 
   DEPARTMENT OF VETERANS AFFAIRS; ACCOMPANIED BY FRANCES M. 
    MURPHY, M.D., DEPUTY UNDER SECRETARY FOR HEALTH POLICY 
          COORDINATION, VETERANS HEALTH ADMINISTRATION

    Mr. McClain. Good afternoon, Mr. Chairman, members of the 
committee. Thank you very much for inviting us here this 
afternoon. I am accompanied this afternoon by Dr. Frances 
Murphy, our Deputy Under Secretary for Health Policy 
Coordination.
    We are also pleased to be here with the representatives 
from the various veterans' service organizations to address 
these very important issues.
    I will briefly discuss the measures that you are 
considering, but my prepared statement has more in-depth 
statements, and I ask that it be made a part of the record.
    Chairman Specter. It will be made a part of the record in 
full.
    Mr. McClain. Before discussing the specific legislation 
before you, I want to mention that VA has recently transmitted 
to Congress an important draft bill to greatly improve our 
ability to recruit and retain the highest-quality physicians 
and dentists to treat the Nation's veterans. The bill would 
completely revise the physician and dentist pay system to allow 
us to adjust compensation according to market levels. It also 
contains provisions to enhance our ability to recruit and 
retain nurses. We desire to work with you and the committee on 
this very important legislation and urge passage as quickly as 
possible.
    Mr. Chairman, I will focus my comments on your bill, S. 
1156, the omnibus health care bill. The bill contains various 
provisions, including provisions to extend for 5 years the 
long-term care provisions of the Millennium Act, and to reduce, 
from 70 percent to 50 percent the threshold for mandatory 
eligibility for VA nursing home care.
    We are concerned with this particular provision, since we 
estimate it would cost almost $2.5 billion over 5 years, and it 
has not been planned for in the current budget process. The 
provision could have serious unintended consequences, including 
slowing the rate of growth of non-institutional long-term care 
services and reducing the availability of services for non-
mandatory categories of veterans because of competing 
priorities for limited resources.
    We also believe cost-free care in State homes should be 
included in the options available to those severely disabled 
service-connected veterans. State home care should be made 
available to these veterans without any out-of-pocket costs. We 
would like to work with the committee to develop the necessary 
legislation.
    S. 1156 would also authorize two construction projects. We 
support those projects, in concept, and will consider them in 
future budget preparations. However, we would urge that you 
also include authorization for other projects included in the 
President's budget, including a health care facility in Las 
Vegas. The latter is needed because VA just recently, on July 
1st, vacated an outpatient clinic in Las Vegas due to 
structural inadequacies.
    Finally, S. 1156 would broaden the authority of the 
Veterans Benefit Administration to contract with outside 
entities for disability examinations in connection with the 
adjudication claims for veterans' benefits. Current law allows 
such contracting at no more than 10 regional offices on a pilot 
basis. Your bill would remove the 10-office limitation.
    Sir, I see that my time is up, and I would be glad to 
answer any questions the committee has.
    [The prepared statement of Mr. McClain follows:]

      Prepared Statement of Hon. Tim S. McClain, General Counsel, 
                     Department of Veterans Affairs

     Good afternoon Mr. Chairman and Members of the Committee.
    I am pleased to be here to present the Administration's views on 
six bills that pertain primarily to the veterans' health care system.

                                 S. 1156

    Mr. Chairman, I will begin by addressing S. 1156, your omnibus 
health-care bill. It includes provisions pertaining to long-term health 
care in VA, personnel matters, authorization for construction of two 
major medical facilities, and permanent authorization of the Veterans 
Benefits Administration to obtain disability examinations on a contract 
basis.

                       LONG-TERM CARE PROVISIONS

    In 1999, the Congress made significant changes in our long-term 
care programs through enactment of what we commonly refer to as ``The 
Millennium Act.'' Among other things, that law directed that VA 
``shall'' furnish nursing home care to any veteran needing such care 
for a service-connected disability and to any veteran with a service-
connected disability rated at least 70 percent. It also directed that 
VA include various non-institutional extended care services in the 
medical benefits package. At the time of enactment, the impact both 
provisions would have on VA was uncertain, and Congress chose to limit 
their applicability to the 4-year period ending December 31st of this 
year. Section 101 of your bill would extend the provisions for an 
additional 5 years through December 31, 2008. That section would also 
extend the requirement that we furnish needed nursing home care to all 
veterans with service-connected disabilities rated 50 or 60 percent.
    The Department's view is that it would be premature at this time to 
extend the two Millennium Act provisions for 5 years. As you know, we 
provided the Congress with a report on implementation of the Millennium 
Act in March. We are continuing to gather information and will provide 
the Congress with an additional report later this year. That report, 
and other actuarial analyses, will provide data that will aid VHA 
leaders and Congressional policymakers in determining appropriate 
longer-term directions for development of VA long-term care services. 
Accordingly, we recommend only a 1-year extension at this time.
    We are also concerned about extending so-called ``mandatory'' 
nursing home eligibility to all veterans with service-connected 
disabilities rated at least 50 percent. We estimate that the change 
from 70 percent to 50 percent would cost $2.5 billion over 5 years and 
has not been planned for in the budget process. As a result, the 
provision could have serious unintended consequences including slowing 
the rate of growth of non-institutional long-term care services and 
reducing the availability of services for non-mandatory categories of 
veterans because of competing priorities for limited resources. We 
recommend that the Committee defer any such change in law until further 
data about VA's experience under the Millennium Act are available to 
better inform its decision. We also believe State homes should be 
included in the options available to these severely disabled service-
connected veterans. State-home care should be made available to these 
veterans without out-of-pocket cost. We would like to work with the 
Committee to develop the necessary legislation.
    Section 102 of your bill would amend existing law to clarify that 
we have authority to provide veterans with nursing home care and adult 
day health care in private community nursing homes and other facilities 
using agreements for reimbursement similar to those used under the 
Medicare Program. That approach would differ from our current practice 
of providing such care only through actual contracts with the nursing 
homes or providers of adult day health care. To implement the 
authority, the Department would have to promulgate regulations to 
establish a program to directly reimburse the community facilities on 
behalf of veterans for the care furnished. The regulations would 
include all of the parameters for the program, including amounts VA 
would pay for various types of care, and the standards that facilities 
would have to meet to receive VA reimbursement. In many respects, the 
parameters for the program could mirror those now used in the Medicare 
Program. We do not object to section 102 as an alternative approach to 
assist us in meeting the needs of veterans for nursing home care and 
adult day health care in non-Department facilities.

                       CONSTRUCTION AUTHORIZATION

    Section 201 of the bill would authorize construction of a long-term 
care facility in Lebanon, Pennsylvania, in an amount not exceeding 
$14,500,000 and a long-term care facility in Beckley, West Virginia, in 
an amount not to exceed $20,000,000. We would point out that the cost 
for the project in Beckley is now estimated to be $20,800,000. We 
generally support these projects in concept and we will be considering 
them in the context of future budget preparations.
    Mr. Chairman, the President's fiscal year 2004 budget included a 
request for authorization for a major construction project at Chicago 
(West Side), Illinois for a new inpatient tower; outpatient clinic 
leases in Boston, Massachusetts and Pensacola, Florida; and a lease for 
the Health Administration Center in Denver, Colorado. In addition we 
requested an authorization for an outpatient lease in Charlotte, North 
Carolina that received an appropriation in fiscal year 2002. We ask 
that you act favorably on those requests, as well as those seismic 
projects that were listed in the President's fiscal year 2003 budget. 
The facilities at Palo Alto, San Francisco, and West Los Angeles remain 
as a critical risk to the safety of patients and staff in the case of 
seismic events and those projects remain a high priority for the 
Department. We are confident that the CARES studies will validate the 
continued need for these major facilities. In addition, we request 
authorization for a health care facility in Las Vegas to replace the 
existing clinic that we were required to vacate on July 1st because of 
structural inadequacies in the building. It is important that the 
Department be provided this authorization so we will be able to move 
forward next year.

                          PERSONNEL PROVISIONS

    S. 1156 also contains four separate sections that address personnel 
matters. The first provision, section 301, would amend existing law to 
add a significant number of mission-critical, scarce, skilled health 
care positions, such as dietitians, medical technologists, and medical 
records administrators/specialists to the current list of Title 38 
hybrid positions. We support the goals of increased flexibility in 
staffing these positions because of today's fierce competition for 
qualified candidates (particularly those who possess skills acquired in 
primary care settings), market-wide shortages in these health care 
occupations, and VA's aging health care work force. We are currently 
considering a similar proposal to increase flexibility in staffing 
these positions, and the Office of Personnel Management recently issued 
interim final regulations greatly expanding availability of direct hire 
authority for critical need or shortage situations. We are examining 
whether or not we need legislation given these brand new regulations, 
and will work with Congress to reconcile if we do.
    In the past, we have not been able to quickly and efficiently 
recruit candidates. Our inability to consistently make timely job 
offers is a chief reason why the Department is experiencing hiring 
difficulties. These difficulties can adversely affect access to care 
for many of our veterans. Second, the delays cause many qualified 
candidates to forego consideration of VA employment. With multiple job 
opportunities in hand, they turn to the private sector where the hiring 
process is more responsive.
    Section 302 of the bill would amend the law establishing the 
Veterans Canteen Service (VCS) to permit persons employed by VCS to be 
considered for competitive service appointments in the Department in 
the same manner that Department employees in the competitive service 
are considered for transfers to competitive service positions. 
Currently, VCS Management Program employees may be appointed to 
positions in the competitive service under an interchange agreement 
between the Department and the Office of Personnel Management (OPM). 
Section 302 would authorize a similar interchange agreement for non-
managerial VCS employees. It would authorize all VCS employees to 
transfer into a competitive service position. Time served in the 
Canteen Service would count toward the 3-year service requirement for 
career civil service status.
    The Administration does not support section 302 because it believes 
that establishing eligibility for the non-competitive conversions of 
VCS hourly employees into competitive service positions would provide 
an unfair advantage over excepted service employees from other 
Departments and agencies seeking appointment to competitive service 
positions at VA.
    Section 303 of the bill would retroactively apply recently 
legislated changes to the method of computing retirement annuities for 
certain VA health-care personnel who are already retired. The 
Department of Veterans Affairs Health Care Programs Enhancement Act of 
2001 prospectively changed the way part-time service performed before 
April 7, 1986, by certain VA health-care personnel is credited for 
annuity purposes. Section 303 would extend this change to individuals 
who retired before the effective date of enactment. Traditionally, 
retirement benefit changes have been applicable only to individuals 
retiring after enactment of the change. This change would recreate a 
very expensive precedent for governmentwide application of the 
principle of retroactivity in retirement cases involving part-time 
service. Consequently, the Administration strongly opposes this 
provision, as it would impact retirement fund outlays and have a PAYGO 
cost not contemplated in the President's Budget.
    Section 304 of S. 1156 would broaden the authority of the Veterans 
Benefits Administration to contract with outside entities for 
disability examinations in connection with the adjudication of claims 
for veterans' benefits. Current law allows VBA to do so at no more than 
10 regional offices on a pilot basis. Section 304 would remove the 10-
office limitation. The pilot has been a success, however, there are 
funding issues and we do not yet have cleared views and estimates on 
this provision. We will supply them when they are available.

                                 S. 613

    S. 613, the Veterans' New Fitzsimons Health Care Facilities Act of 
2003, would authorize us to carry out major medical facility projects 
at the former Fitzsimons Army Medical Center in Aurora, Colorado. The 
bill would provide us with flexibility in selecting the projects by 
providing that they may include acute, sub-acute, primary, and long-
term care services. It would limit project costs to an amount not to 
exceed $300,000,000 if a combination of direct construction and capital 
leasing is selected and no more than $30,000,000 per year in capital 
leasing costs if a leasing option is selected. In addition, the bill 
places certain limitations on the fiscal years from which appropriated 
funds can come.
    Mr. Chairman, we support the intent of this provision of S. 1613. 
We have been involved in evaluating and planning for a facility for the 
Fitzsimons site and there is a potential for a joint venture with DOD 
to provide health care to both veterans and DOD beneficiaries. Many 
issues still remain including the availability of land, but VA would be 
able to provide the report to Congress within 120 days as required if 
the bill is enacted.
    I also note that Section 3 of S. 613 would require the secretaries 
of Veterans Affairs and Air Force to undertake such joint activities as 
they deem appropriate to address the health care needs of veterans and 
active duty Air Force members. We have no objection to this provision.

                                S. 1213

    S. 1213, a bill entitled the ``Filipino Veterans' Benefits Act of 
2003,'' is the Administration's bill that you introduced on our behalf. 
I want to express my sincere appreciation to you for introducing the 
measure. As you know, section 2 of the bill would extend health care 
benefits to Filipino veterans residing legally in the United States who 
served in the Commonwealth Army and new Philippine Scouts. I urge that 
you act on the bill as expeditiously as possible so we can meet the 
needs of these very deserving Filipino veterans.

                      S. 615, S. 1289 AND S. 1144

    S. 615 would designate the outpatient clinic located in Horsham, 
Pennsylvania, as the ``Victor J. Saracini Department of Veterans 
Affairs Outpatient Clinic''. S. 1289 would designate the Minneapolis VA 
Medical Center as the Paul Wellstone Department of Veterans Affairs 
Medical Center. S. 1144 would designate the facility in Chicago now 
known as the West Side VA Medical Center as the ``Jesse Brown 
Department of Veterans Affairs Medical Center''. While we ordinarily 
defer to the views of Congress on the naming of Federal properties, in 
the case of former Senator Wellstone and former Secretary Jesse Brown 
we make an exception. Enactment of S. 1144 and S. 1289 would be an 
altogether fitting tribute to these two truly courageous and steadfast 
advocates for America's veterans.

                                S. 1283

    S. 1283 would impose new Congressional notice-and-wait requirements 
on VA before we could take any action to implement our Capital Asset 
Realignment for Enhances Services (CARES) decisions. The bill would 
prohibit VA from taking a proposed action for 60 days following 
submission of advance written notice of the action to Congress, or 
before 30 days during a continuous session of Congress.
    Mr. Chairman, we must object to enactment of this bill. As drafted, 
the bill is overly broad, unnecessary, and would significantly impede 
our completion of the CARES process. By stating that VA must provide 
prior notice of ``any action,`` apparently including even minor 
actions, the measure would effectively prevent completing the CARES 
process in anything like a timely manner. I can assure you we will 
provide Congress and this Committee with our CARES plan well in advance 
of undertaking significant actions to implement it. Congress will have 
considerable lead-time to consider our proposed actions before they are 
undertaken.
    I would also point out that we are already subject to various 
existing notice-and-wait requirements that serve the same purpose as 
that intended by this legislation. We currently provide such advance 
notice under section 510 of Title 38 whenever we undertake a 
significant reorganization of any office or facility. Congress must 
also approve in advance any significant construction project, and we 
provide Congress with advance notice of any proposed enhanced-use 
leases. The additional requirements this bill would impose are 
therefore unnecessary.

         THE ADMINISTRATION'S PHYSICIANS AND DENTISTS PAY BILL

    Finally Mr. Chairman, on July 18th, we delivered to the President 
of the Senate and the Speaker of the House of Representatives the 
Administration's draft bill ``to simplify and improve pay provisions 
for physicians and dentists, to authorize alternate work schedules and 
executive pay for nurses.'' This very important bill will greatly 
improve VA's ability to recruit and retain the highest quality 
physicians and dentists to treat the Nation's veterans. It would 
completely revise the VA physician and dentist pay system to allow VA 
to adjust compensation according to market levels. The draft bill would 
also reduce the potential for conflicts of interest at the Department's 
affiliated facilities by prohibiting senior clinician managers at the 
Chief of Staff level and above from receiving any compensation from the 
medical schools affiliated with their respective facilities. Finally, 
the bill would enhance the Department's ability to recruit and retain 
nurses by permitting the use of alternate work schedules and by 
authorizing special pay for VA nurse executives.
    This bill is critical to the Department's ability to recruit and 
retain the highly skilled medical professionals we need to care for our 
veterans. I offer to work with you and the Committee to get this very 
important legislation passed as expeditiously as possible.
    That concludes my prepared statement. I would be pleased to answer 
any questions you may have.

    Chairman Specter. Thank you very much, Mr. McClain. We will 
be observing the time, and I know that everybody will submit 
statements or has submitted statements which detail the 
positions to the extent anyone wishes to take them, as to all 
of the legislation on the agenda.
    Our next witness will be Ms. Cathleen Wiblemo, the deputy 
director for Health Care, Veterans Affairs and Rehabilitation 
Commission of The American Legion. Thank you for joining us, 
and we look forward to your testimony.

 STATEMENT OF CATHLEEN C. WIBLEMO, DEPUTY DIRECTOR FOR HEALTH 
   CARE, VETERANS AFFAIRS AND REHABILITATION COMMISSION, THE 
                        AMERICAN LEGION

    Ms. Wiblemo. Thank you, Mr. Chairman. It is an honor to be 
here to present the views of the American Legion on these 
important pieces of legislation before us today. For the sake 
of brevity, I will limit my comments and highlight only the 
bills of major importance to the American Legion.
    S. 1156, the Department of Veterans Affairs Long-Term Care 
and Personnel Authorities Enhancement Act of 2003. Although the 
American Legion supports the provision within this bill to 
require VA to provide long-term care for those veterans rated 
50-percent disabled and higher, it is critical that VA meet the 
long-term care needs of those veterans currently provided for 
in Title 38, those that are 70 percent and higher.
    On S. 1213, Filipino Veterans' Benefit Act of 2003, the 
American Legion has long advocated for the recognition of the 
selfless contributions of these brave men and women in World 
War II. The American Legion fully supports this bill.
    With regard to S. 613, the Veterans New Fitzsimons Health 
Care Facilities Act of 2003, the American Legion is again 
pleased to support this legislation. The VA Medical Center in 
Denver is operating out of a 50-year-old building with lead 
paint issues, among other system shortfalls. Piecemealing 
renovation is not an option.
    On S. 1283, this legislation would require advance 
notification of Congress regarding any action proposed to be 
taken by the Secretary regarding the Capital Asset Realignment 
for Enhancement Services, also known as CARES Initiative.
    The American Legion believes that the implementation of 
CARES will not be a seamless transition. There will be 
questions of funding, reevaluations of initiatives as the years 
pass, and more than likely changes will have to be made. This 
initiative promises to impact millions of veterans and disrupt 
at least for some time their medical services.
    The American Legion continues to support CARES. However, we 
have voiced our concerns regarding the process, the 
implementation phase, and strategic planning into the future. 
The American Legion will continue to monitor the CARES process 
and believe it may indeed require additional congressional 
oversight to ensure its effective implementation.
    Thank you, again, for this opportunity, and we look forward 
to working with you and this committee on these important 
issues. I will be happy to answer any questions.
    [The prepared statement of Ms. Wiblemo follows:]

 Prepared Statement of Cathleen C. Wiblemo, Deputy Director for Health 
  Care, Veterans Affairs and Rehabilitation Commission, The American 
                                 Legion

    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to present The American Legion's views on S. 613, the 
Veterans' New Fitzsimons Health Care Facilities Act of 2003; S. 1156, 
the Department of Veterans Affairs Long-Term Care and Personnel 
Authorities Enhancement Act of 2003; S. 1213, the Filipino Veterans' 
Benefits Act of 2003 and S. 1283 a bill requiring advance notice of 
actions under VA's Capital Asset Realignment for Enhanced Services.
    In the wake of the ongoing Medicare Prescription Drug Benefit 
debate, it is important for Congress to focus on the nation's Senior 
Citizens and equally important to include military veterans in that 
forum. While America struggles to provide comprehensive health care 
services for all of its citizens, Congress cannot shirk its duty to 
provide those services to the men and women who have served this Nation 
in its armed services.

 S. 1156, DEPARTMENT OF VETERANS AFFAIRS LONG-TERM CARE AND PERSONNEL 
                  AUTHORITIES ENHANCEMENT ACT OF 2003

    This legislation provides for certain improvements and enhancements 
to VA's Long-Term Care program.
    Section 101 amends Title 38, USC, section 1701(a) (10) to extend 
authorization for non-institutional long-term care services, as part of 
VA ``medical services,'' from December 31, 2003 to December 31, 2008. 
This bill amends section 1710A to require VA to provide nursing home 
care to those veterans rated 50 percent or more disabled for a service 
connected disability through December 31, 2008. Section 102 of the bill 
would provide VA with enhanced agreement authority to utilize non-VA 
nursing home facilities in furnishing eligible veterans' nursing home 
or adult day health care.
    The American Legion consistently advocates the need to improve VA's 
ability to meet the increasing demand for long-term care. We strongly 
supported the enactment of P.L. 106-117, the ``Veterans' Millennium 
Health Care and Benefits Act'', which included a number of provisions 
that were intended to ensure veterans rated 70 percent or more disabled 
for a service-connected disability would be provided long-term care 
through VA. The American Legion is disappointed in VA's inability to 
meet its current mandate to provide care for veterans rated 70 percent 
disabled or higher. While The American Legion supports the provision 
within this bill to require VA to provide long-term care for those 
veterans rated 50 percent disabled and higher, it is imperative that VA 
meet the long-term care needs of those veterans currently provided for 
in Title 38, USC.
    Section 201 would authorize specific major medical construction 
projects in Lebanon, Pennsylvania and Beckley, West Virginia. The 
American Legion is supportive of these initiatives. They will help 
bring much needed improvement in the medical care and services provided 
by these facilities.
    Section 301 would expand the list of positions within the Veterans 
Health Administration (VHA) that are considered necessary for the 
medical care of veterans in Title 38, USC, Section 7401, to include a 
variety of specialists and other health care professionals. It would 
also authorize additional pay for these individuals. The American 
Legion has no objection to this proposal, since it will enable VHA to 
recruit and retain essential medical care personnel necessary to 
provide high quality medical care.
    Section 302 amends Title 38, USC, Section 7802 to provide that 
employees of the VA Canteen Service may be considered for appointment 
to Department positions in the same manner as Department employees are 
considered for transfer to such positions.
    Section 303 establishes effective dates for computation of the 
annuity for part-time service performed by certain health care 
professionals, who retired after April 7, 1986, as provided by P.L. 
107-135. The American Legion has no objection to this amendment.
    Section 304 provides VA with permanent authority to use contract 
physicians to conduct disability examinations. P.L. 104-275 authorized 
VA to conduct a pilot program of contract disability examinations. 
Beginning in 1997, VA established an initial 5-year contract with QTC, 
a medical group analysis firm who conducted Compensation and Pension 
(C&P) disability examinations at 13 sites around the nation. The 
contract was renewed late last year. The American Legion believes that 
the contract exam program has proven itself to be an important adjunct 
to the traditional C&P exams performed at VA medical centers. QTC, up 
to this point, has been the only company engaged in this type of 
service for VA. With permanent authority, VA will have the flexibility 
to explore and expand the use of such contract providers and part of 
the overall effort to improve both the quality and timeliness of 
veterans' claims processing. The American Legion supports making VA's 
authority to establish such contracts permanent.

            S. 1213, FILIPINO VETERANS' BENEFITS ACT OF 2003

    This legislation provides long-needed improvements in certain 
benefits for former members of the Philippine Commonwealth Army and New 
Philippine Scouts, who are residing in the United States and are U.S. 
citizens or legal aliens. It authorizes VA to provide these veterans 
with hospital care, nursing home care, and medical services. It also 
equalizes rates of payment of VA disability compensation and dependency 
and indemnity compensation as well as providing entitlement to VA 
burial benefits, including burial in a National Cemetery, to those 
former New Philippine Scouts who reside in the United States. It also 
authorizes the continued operation of the VA Regional Office in Manila 
until 2008.
    Mr. Chairman, The American Legion urges Congress to recognize the 
selfless contributions of these brave men during World War II and 
redress the longstanding inequity in the benefits provided these 
veterans. The American Legion fully supports this bill.

   S. 613 VETERANS' NEW FITZSIMONS HEALTH CARE FACILITIES ACT OF 2003

    This legislation authorizes the VA Secretary, under 38 USC, Section 
8104, to carry out major medical facility projects at the site of the 
former Fitzsimons Army Medical Center. Projects, selected by the 
Secretary, may include inpatient and outpatient facilities providing 
acute, sub-acute, primary and long-term patient care services. Project 
costs shall not exceed $300 million, if a combination of direct 
construction by VA, and capital leasing is selected or no more than $30 
million per year, if capital leasing alone is selected.
    The American Legion supports the relocation of the Denver Veterans 
Affairs Medical Center (VAMC) to Fitzsimons. The Fitzsimons 
Redevelopment Authority has begun converting the site of the former 
Army medical center to a Bio-Science Park, with the anchor tenant to be 
the University of Colorado Health Science Center (UCHSC). UCHSC has 
begun implementing its long-range plan to relocate its existing 
facilities, including its hospital to Fitzsimons. The Denver VAMC has 
had a longstanding, synergistic relationship with UCHSC and a move to 
Fitzsimons would facilitate sharing, unite the Eastern Colorado Health 
Care System with the university, and ultimately improve the timeliness 
and quality of health care provided to the enrolled veterans of the 
Denver area.
    The core space of the current VAMC is 50 years old and undersized 
for its mission. Its support systems are inadequate for modern health 
care and it is reaching a non-recovery condition. A state-of-the-art 
facility would create flexible space and facilitate patient treatment 
in a modern day health care setting. The American Legion is pleased to 
support this legislation.
    While the legislation we have discussed are solid efforts to 
address the challenges facing the Veterans Health Administration and 
its mission to provide health care services, they do not go far enough.
    Until health care funding is provided in a consistent and timely 
manner, VA cannot grow to meet the future demands nor adapt to the 
changing face of the veterans' community. The demand and funding 
mismatch must be resolved in order to enhance health care delivery for 
the nation's veterans. The American Legion supports mandatory funding 
for VA's medical care.
s. 1283, advance notification of congress regarding any action proposed 
to be taken by the secretary of veterans affairs regarding the capital 

                      ASSET REALIGNMENT INITIATIVE

    The veterans' health care delivery system was designed when 
inpatient care was the primary focus, long inpatient stays were common 
and access was open to any veteran in need of care. As demand for 
services increased, budgetary constraints forced Congress and VA to 
take steps to restrict access to health care with the enactment of 
complex rules and regulations to limit both care and services.
    Throughout the 1990's to the present, efforts have been made in the 
public and private sectors to control the cost of health care delivery 
through efficiencies and cost cutting. VA has changed from a hospital-
based health care system into an integrated health care delivery 
network. In 1996, landmark legislation opened enrollment to all 
veterans within existing appropriations.
    In 1999, a Government Accounting Office (GAO) report found that VA 
spent approximately $1 million a day on unused or underutilized space. 
GAO recommended, and VA agreed, that these funds could be better spent 
on improving the delivery of services and treating more veterans at 
more locations. In response to the GAO report, VA developed a process 
to provide the right care, at the right place, in the right setting.
    The Capital Asset Realignment for Enhanced Services (CARES) was 
initiated in October 2000. The pilot program was completed in Veterans 
integrated Services Network (VISN) 12 in June 2001 with the Secretary 
announcing the final decision in February 2002. The remaining 20 VISN's 
were to be assessed in Phase II that began in June 2002.
    During the pilot program in VISN12, stakeholders played no major 
role in the planning process. As a major stakeholder, The American 
Legion wants to ensure objectivity and inclusion of veterans' 
perspectives in the outcomes of CARES Phase II. To that end, The 
American Legion National Commander, Ronald F. Conley, authorized the 
creation of the Veterans Affairs Facility Advisory Committee on CARES 
(VAFACC). The committee's charge was to review the VISN market plans, 
planning initiatives and VA Facility Assessment Reports relating to the 
CARES process, keeping in mind VISN's were tasked to cut 10 percent of 
their vacant space by 2004 and 30 percent by 2005.
    The committee raised the following concerns:
    Funding.--Clearly, billions of dollars in discretionary 
appropriations will be needed to accomplish the new construction and 
approved renovations. CARES is an ongoing process, and incremental 
changes are anticipated. With the proposed consolidations and 
transferring of services, it is imperative that no veteran experience 
any delays in access to the delivery of quality health care, and 
patient safety must not diminish. No VA medical facilities should be 
closed, sold, transferred or downsized until the proposed movement of 
services is complete and veterans are being treated in the new 
locations.
    Veteran's Population.--There is some concern that the projected 
veterans' population is underestimated. Indeed, it might be 
underestimated based on the war on terrorism. Certainly with regard to 
long-term care, mental health, domiciliary and other specialized care 
populations, the CARES process has yet to incorporate projections.
    Long-Term Care.--A spent close to $3.3 billion on long-term care in 
fiscal year (FY) 2002. With the enactment of the Millennium Health Care 
Act, demand will most likely increase due to the aging of the veteran 
population over the next decade. VA estimates that the number of 
veterans most in need of long-term care, those veterans 85 and older, 
will more than double to about 1.3 million in 2012. Yet, even with 
these numbers, veterans long-term care needs and projected growing 
demand are not included in Phase II of the CARES process.
    Mental Health.--Due to several factors concerning the initial 
projections, the National CARES Planning Office (NCPO) and several 
other experts are reviewing the mental health inpatient and outpatient 
projections. Because of the questionable decline of demand in several 
markets, networks were instructed to plan for increase in mental-health 
services only. Stakeholders were very concerned about the mental-health 
projections and expressed dissatisfaction with the model.
    Unutilized Space.--According to VA's office of Facilities 
Management (OFM), VA facility assets include 5,300 buildings; 150 
million square feet of owned and leased space; 23,000 acres of land; 
and a total replacement value estimated at 38.3 billion. OFM assessed 
and graded 3,150 buildings for a total of 135 million square feet with 
correction costs estimated at $4.5 billion. More development is needed 
by the VISN's to more effectively utilize this unused space instead of 
just selling or demolishing these buildings. Once the buildings are 
gone, there will be no way of getting them back. Before any unutilized 
space is sold, transferred, destroyed or otherwise disposed of, the 
CARES process must consider alternative uses of that space to include: 
services for homeless veterans, long-term care and the expansion of 
existing services.
    Contracting Care.--Throughout the VA health-care system, 
contracting out of care is prevalent. While contracting may be 
necessary in some circumstances, the wholesale use of this health care 
delivery tool should be used with caution. Contracting out of care was 
extensive in the VISN proposals. Some VISN's made the blanket statement 
that care would be contracted out to meet excess demand in 2012 and 
2022. Considering that extensive research and cost analysis that will 
have to be done concerning available resources (if they are available) 
within each community, The American Legion does not believe that is 
much of a plan.
    Enhanced Use Lease Agreements.--Through the use of EU leases, VA 
can receive cash or ``in-kind'' consideration (such as facilities, 
services, goods, or equipment). Several of the VISN's proposed 
enhanced-use lease agreements with the public and private sectors. VA 
should continue to seek opportunities in the area of enhanced use 
leasing. It can certainly have a positive impact on service delivery to 
veterans and local communities.
    VA/DoD Sharing.--There are many opportunities for sharing between 
VA and the Department of Defense (DoD). Both VA and DoD benefit from 
these agreements, and every effort should be made by the VISN's to 
pursue this avenue in order to save money through cost avoidance, in 
particular pharmaceuticals, supplies and maintenance services.
    The American Legion intends to remain an active partner with VA 
during this critical process of realigning the agency's capital assets 
to better serve American's veterans. Recent developments in the CARES 
process serve to reinforce our concerns outlined in this testimony. The 
Undersecretary for Health sent back the market plans to 15 VISN's and 
20 facilities with instructions to develop other options and look at 
further consolidating inpatient services in many of the facilities. 
Additionally, the CARES Commission hearings, after being postponed for 
60 days are due to start August 12, 2003. These hearings concern the 
National Cares Plan, which no one has seen yet, and won't until at 
least August 1, 2003. That gives no lead time for stakeholders to study 
the plan before written statements are due for the initial hearings. 
The delays have given rise to many questions and concerns on the part 
of the stakeholders. We will continue to be vigilant in monitoring the 
progress in CARES. Indeed, the CARES process may require congressional 
oversight given the above concerns.
    I thank you again for your commitment to veterans and look forward 
to working with you and the Committee on these important issues.

    Chairman Specter. Thank you very much, Ms. Wiblemo.
    We will now turn to Mr. Paul Hayden, National Legislative 
Service of the Veterans of Foreign Wars. Thank you for joining 
us, Mr. Hayden. The floor is yours.

    STATEMENT OF PAUL A. HAYDEN, DEPUTY DIRECTOR, NATIONAL 
         LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS

    Mr. Hayden. Thank you much, Mr. Chairman, members of the 
committee.
    On behalf of the 2.6 million men and women of the Veterans 
of Foreign Wars of the United States and our Ladies Auxiliary, 
I would like to thank you for allowing our organization to 
testify at today's hearing.
    Four of the bills under consideration today represent 
attempts to improve the delivery of health care to our Nation's 
veterans, while three honor and recognize individuals for their 
important contributions to their fellow veterans and the 
Nation.
    We are pleased to support them all, and I would offer the 
following comments.
    First, the VFW strongly endorses S. 615, S. 1144, and S. 
1289.
    Second, shifting to those bills that will improve veterans' 
health care delivery, we would offer our support for S. 613 
that would authorize the construction or lease of a new medical 
facility at the site of the former Fitzsimons Medical Center. 
This hospital would be constructed and operated in conjunction 
with the University of Colorado that would also maintain 
facilities at the former base.
    As for the implementation, we would caution the veterans 
must remain a priority at this facility.
    Further, the VFA is a strong supporter of improving and 
expanding VA's statutory authority to provide long-term care 
services to our Nation's veterans. Therefore, we believe that 
S. 1156, to improve and enhance the provision of long-term 
health care provided for veterans by the VA is a positive step 
in the right direction.
    Turning to S. 1213, the Filipino Veterans' Benefits Act, 
our comments are limited to Section 2 of this legislation, 
which would provide access to VA health care for certain 
Filipino veterans currently residing in the United States. We 
believe that providing these Commonwealth Army veterans and 
Filipino scouts with access to the hospital, nursing home care 
and medical services, consistent with a veteran of the U.S. 
Armed Forces, is the proper thing to do.
    Finally, the VFA backs S. 1283 that would require advance 
notification of Congress of actions to be taken under VA's 
Capital Asset Realignment for Enhanced Services program.
    With Phase II of the CARES process moving so rapidly, we 
appreciate the opportunity that this oversight would provide in 
order to ensure that what VA is proposing, under the CARES 
program, is truly consistent with enhancing services to this 
Nation's veterans.
    Mr. Chairman, this concludes my testimony. I will be happy 
to answer any questions that you or members of the committee 
may have.
    [The prepared statement of Mr. Hayden follows:]

        Prepared Statement of Paul A. Hayden, Deputy Director, 
         National Legislative Service, Veterans of Foreign War

    Mr. Chairman and Members of the Committee: On behalf of the 2.6 
million men and women of the Veterans of Foreign Wars of the United 
States (VFW) and our Ladies Auxiliary, I would like to thank you for 
allowing our organization to testify at today's hearing. The bills 
under consideration during today's hearing represent a wide range of 
issues but have one thing in common: the VA health care system. Four of 
the bills represent attempts to improve the delivery of health care to 
our nation's veterans and three honor and recognize individuals for 
their important contributions to their fellow veterans.

  S. 613, VETERANS' NEW FITZSIMONS HEALTH CARE FACILITIES ACT OF 2003

    This legislation would authorize the construction or lease of a new 
medical facility at the site of the former Fitzsimons Medical Center. 
This hospital would be constructed and operated in conjunction with the 
University of Colorado that would also maintain facilities at the 
former base. The VFW supports this legislation, but we do have several 
concerns with the implementation.
    We must be assured that veterans will remain a priority at this 
facility. We have raised questions about the governing board of the 
complex and must receive assurances that VA will be properly 
represented on the board and that VA retains enough independent control 
to ensure that veterans remain a priority. VA must be able to adapt to 
any changes in the veteran population, in technology, and in health 
care and business practices to remain able to effectively treat 
veterans. Without proper control and representation, the partnership 
may compromise this ability.
    Recent statements by VA Under Secretary for Health Robert Roswell 
and Representative Bob Beauprez of Colorado at the June 11, 2003, 
hearing of the House Committee on Veterans' Affairs indicate that 
agreements can be reached to ensure that the partnership and governance 
are not a hindrance. We must make certain that these agreements do, in 
fact, result in quality health care and an ensured priority for 
Colorado's veterans.

S. 615, TO NAME THE DEPARTMENT OF VETERANS AFFAIRS OUTPATIENT CLINIC IN 
   HORSHAM, PENNSYLVANIA, AS THE ``VICTOR J. SARACINI DEPARTMENT OF 
                  VETERANS AFFAIRS OUTPATIENT CLINIC''

    The VFW supports this legislation that would name the VA outpatient 
clinic in Horsham, Pennsylvania, after Victor J. Saracini. Captain 
Saracini retired from the Naval Reserve after having served on active 
duty in the U.S. Navy. Captain Saracini was the pilot of United 
Airlines Flight 175, which was one of the four airplanes hijacked by 
terrorists on September 11, 2001. His flight was crashed into the south 
tower of the World Trade Center, killing all on board.
    In light of the terribly tragic events of that day and Captain 
Saracini's distinguished career in service to this country, it is 
fitting that we would honor his memory by renaming this clinic. It is 
the least we can do to recognize the ultimate sacrifice he and his 
family have made.

S. 1144, TO NAME THE HEALTH CARE FACILITY OF THE DEPARTMENT OF VETERANS 
AFFAIRS LOCATED AT 820 SOUTH DAMEN AVENUE IN CHICAGO, ILLINOIS, AS THE 
     ``JESSE BROWN DEPARTMENT OF VETERANS AFFAIRS MEDICAL CENTER''

    The VFW is pleased to support this legislation, which would name 
the Westside VA Medical Center after the late Jesse Brown. Our 
organization is honored to have called him a member, and we hold him in 
the highest esteem for his lifetime of service to this country and its 
veterans.
    Naming the Medical Center after Jesse Brown is a fitting tribute to 
a man who dedicated his life to serving veterans. As VA Secretary, he 
placed emphasis on serving veterans and seeing that VA met their needs. 
He was a true advocate and friend to our nation's disabled veterans.
    Throughout his entire career he repeatedly demonstrated strong 
leadership. From his military service in the Marine Corps during 
Vietnam to his role as Executive Director of the Disabled American 
Veterans, and later as VA Secretary, he set a course and inspired 
everyone to follow him.
    With his passing the Nation lost one of its strongest and most 
tireless veterans' advocates. As such, we feel that it is entirely 
appropriate that we make this small gesture to help foster remembrance 
of this remarkable man and to inspire the kinds of genuine leadership 
and advocacy that were his hallmarks.

S. 1156, TO AMEND TITLE 38, UNITED STATES CODE, TO IMPROVE AND ENHANCE 
 THE PROVISION OF LONG-TERM HEALTH CARE FOR VETERANS BY THE DEPARTMENT 
OF VETERANS AFFAIRS, TO ENHANCE AND IMPROVE AUTHORITIES RELATING TO THE 
ADMINISTRATION OF PERSONNEL OF THE DEPARTMENT OF VETERANS AFFAIRS, AND 
                           FOR OTHER PURPOSES

    The VFW is a strong supporter of improving and expanding VA's 
statutory authority to provide long-term care services to our nation's 
veterans. VFW Resolution 605, which was approved by the voting 
delegates to our National Convention, calls on Congress to ``mandate 
and provide funding for the provision of nursing home care for all 
veterans.'' Although this legislation does not completely fulfill the 
intent of this resolution, we do strongly support it, as it is a 
positive step in the right direction and an acknowledgement that 
Congress understands the seriousness and importance of the issues 
surrounding long-term care for veterans.
    Title I of this legislation would extend VA's statutory authority 
to provide nursing home and non-institutional care through the end of 
2008. It is set to expire at the end of this year. Further, it would 
lower the disability threshold for receiving nursing home care from the 
current 70 percent service connected, down to 50 percent service 
connected. We feel that VA has a responsibility to provide for the full 
continuum of health care for all veterans and that this legislation 
moves us closer toward that goal.
    Title I also includes provisions to enhance the delivery of non-
institutional care by allowing VA to contract out for care in 
accordance with section 1866 of the Social Security Act. While we are 
opposed to VA shifting its statutory obligations, we certainly support 
expanding more non-institutional solutions to long-term health care. We 
would caution, however, that VA should ensure that any contracted care 
is at the same level and quality as VA care. With that in mind, the VFW 
believes that these non-institutional programs must be expanded and 
made available nationwide in order to ensure equitable access for 
eligible veterans.
    Title II authorizes the construction of two long-term care 
facilities: one in Lebanon, Pennsylvania, the other in Beckley, West 
Virginia. As we support expanding access to long-term care for our 
veterans, we would support the construction of these facilities. They 
would be of great benefit to Pennsylvania's and West Virginia's veteran 
population.
    With respect to the personnel provisions contained in Title III, I 
would point out that the VFW supports any legislation that will improve 
the access, timeliness, and quality of care to our nation's veterans.

                S. 1213, FILIPINO VETERANS' BENEFITS ACT

    Our comments are limited to section two of this legislation, which 
would provide access to VA health care for certain Filipino veterans 
currently residing in the U.S. The VFW supports this provision.
    We believe that providing these Commonwealth Army veterans and 
Philippine Scouts with access to the hospital, nursing home care, and 
medical services consistent with a veteran of the U.S. Armed Forces is 
the proper thing to do. These brave veterans fought alongside our 
service members during World War II and were a great asset to our 
struggle against the empire of Japan.
    These veterans and their families made the same types of sacrifices 
for the benefit of freedom that our young men and their families did. 
Extending the same health care benefits to those who currently reside 
in the U.S., particularly as their population ages, is fair and just.

  S. 1283, TO REQUIRE ADVANCE NOTIFICATION OF CONGRESS REGARDING ANY 
ACTION PROPOSED TO BE TAKEN BY THE SECRETARY OF VETERANS AFFAIRS IN THE 
 IMPLEMENTATION OF THE CAPITAL ASSET REALIGNMENT FOR ENHANCED SERVICES 
    INITIATIVE OF THE DEPARTMENT OF VETERANS AFFAIRS, AND FOR OTHER 
                                PURPOSES

    The VFW backs this legislation that would require advance 
notification of Congress of actions to be taken under VA's Capital 
Asset Realignment for Enhanced Services (CARES) program.
    With Phase II of the CARES process moving so rapidly we appreciate 
the opportunity that this oversight would provide in order to ensure 
that what VA is proposing under the CARES program is truly consistent 
with enhancing services to this nation's veterans.
    We would caution, however, that Congress not allow this role to 
turn political or forestall real progress as we have witnessed with the 
Base Realignment and Closure (BRAC) program.

 S. 1289, TO THE NAME THE VA MEDICAL CENTER IN MINNEAPOLIS, MINNESOTA 
                          AFTER PAUL WELLSTONE

    We would like to offer our strong support for S. 1289, legislation 
that would rename the VA Medical Center in Minneapolis, MN after the 
late Paul Wellstone, former Senator and tireless advocate for America's 
veterans.
    Paul Wellstone constantly and consistency crusaded and championed 
for the many issues that were of vital interest to our veteran 
population. He was tenacious in his efforts to assure passage of 
legislation that would provide for those veterans suffering from 
radiation exposure, Gulf War illness and those in need of VA health 
care.
    He took great efforts to ensure that veterans received the proper 
care and treatment they earned through their service in defense of this 
country. Naming this VA Medical Center is a fitting tribute to the long 
legacy he left behind after his tragic accident.
    Mr. Chairman, this concludes my testimony. I will be happy to 
answer any questions that you or the members of this committee may 
have.

    Chairman Specter. Thank you very much, Mr. Hayden.
    We now turn to Mr. Adrian Atizado, Associate National 
Legislative Director for the Disabled American Veterans.
    Thank you for joining us. We look forward to your 
testimony.

STATEMENT OF ADRIAN M. ATIZADO, ASSOCIATE NATIONAL LEGISLATIVE 
              DIRECTOR, DISABLED AMERICAN VETERANS

    Mr. Atizado. Thank you, Mr. Chairman, members of the 
committee. I thank all of you for the opportunity to present 
the views of the Disabled American Veterans on seven bills 
under consideration in today's hearing.
    The first measure under consideration, S. 613, would 
authorize the Secretary to carry out a construction project at 
former Fitzsimons Army Medical Center in Aurora, Colorado. DAV 
does not have a resolution in support of this measure. 
Therefore, we do not object to favorable consideration of S. 
613 by this committee. However, we would oppose any proposal to 
establish a fully integrated facility with joint governance and 
management.
    S. 1156, the Department of Veterans Affairs Long-Term Care 
and Personnel Authorities Enhancement Act of 2003 would extend 
through 2008 VA's authority to provide enrolled veterans access 
to alternative outpatient-based long-term care services.
    In addition, this measure would lower, from 70 to 50 
percent, the threshold level of service-connected disability 
that would qualify a veteran has high priority for 
institutionalized care if needed. DAV has a resolution that 
allows us to fully support the aforementioned provisions of 
this bill.
    Section 2 of S. 1213 of the Filipino Veterans' Benefits Act 
of 2003 would authorize hospital and nursing home care and 
medical services to certain Filipino veterans. DAV does not 
have a resolution in support of this bill. However, we do not 
object to its favorable consideration by the committee, as long 
as sufficient funding to cover the costs of the authorized 
health care is provided.
    S. 1283 would require advance notification of Congress 
regarding any proposed action and implementation of VA's CARES 
Initiative. We do believe VA should provide all relevant 
information and implementation plans to Congress and veterans 
service organizations prior to taking any action proposed under 
the CARES Initiative.
    S. 1289 is a bill to name VA Medical Center in Minneapolis, 
Minnesota, as Paul Wellstone Department of Veterans Affairs 
Medical Center, along with S. 1144, the renaming of the VA 
Medical Center Westside in Chicago, Illinois, after the late 
Secretary for Veterans Affairs, Jesse Brown. We are proud to 
support both measures, including the last eight S. 615 renaming 
measure as well.
    This concludes my statement, Mr. Chairman, and I would be 
happy to answer any questions you may have.
    [The prepared statement of Mr. Atizado follows:]

Prepared Statement of Adrian M. Atizado, Associate National Legislative 
                  Director, Disabled American Veterans

    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to present the views of the Disabled American Veterans 
(DAV) on the seven bills under consideration in today's hearing. The 
DAV appreciates the Committee's interest in improving benefits and 
services for our nation's sick and disabled veterans. The measures 
under consideration today include:
    <bullet> S. 613, a bill to authorize a construction project at the 
former Fitzsimons Army Medical Center, in Aurora, Colorado.
    <bullet> S. 615, a bill relating to the naming of a VA outpatient 
clinic in Horsham, Pennsylvania.
    <bullet> S. 1144, a bill relating to the naming of a VA medical 
center in Chicago, Illinois.
    <bullet> S. 1153, the ``Veterans Prescription Drugs Assistance 
Act.''
    <bullet> S. 1156, the ``Department of Veterans Affairs Long-Term 
Care and Personnel Authorities Enhancement Act of 2003.''
    <bullet> S. 1213, Section 2, a section of a bill relating to 
eligibility of Filipino veterans for health care in the United States.
    <bullet> S. 1283, a bill to require VA to provide advance 
notification to Congress of its intent to implement Capital Assets 
Realignment For Enhanced Services initiatives.
    <bullet> S. 1289, a bill relating to the naming of the VA medical 
center in Minneapolis, Minnesota.

                                 S. 613

    Section 2 of S. 613 authorizes the Secretary of the Department of 
Veterans Affairs (VA) to carry out major medical facility projects at 
the site of the former Fitzsimons Army Medical Center in Aurora, 
Colorado, and may include inpatient and outpatient facilities to 
provide acute, sub-acute, primary, and long-term care services. Using 
funds appropriated for fiscal year 2004 through 2007 costing no more 
than $300 million for direct construction, capital leasing, or a 
combination of both, and $30 million for each fiscal year for capital 
leasing alone; the bill would also require the Secretary to report his 
actions to Congress on the options selected pursuant to this section. 
Section 3 of the bill, requires the VA Secretary and the Secretary of 
the Air Force to undertake joint activities, as they consider 
appropriate, to address the health care needs of veterans and members 
of the Air Force on active duty.
    DAV does not have a resolution in support of this measure; however, 
we do support maintaining the integrity of a viable and independent VA 
health care delivery system to provide health care to our nation's sick 
and disabled veterans. We do not object to favorable consideration of 
S. 613 by the Committee.
    Clearly, there are many options to consider when implementing a 
major medical facility project as proposed in S. 613. We remain 
cognizant of the complex health care, policy, legal, and financial 
issues involved in a proposed relocation to the Fitzsimons campus 
including the identity of the veterans health care system, priorities 
within the VA's capital asset program, and the budget required to 
support the proposed relocation. In this instance, we believe that 
whatever option is chosen, VA should maintain a separate identity with 
direct line authority in all areas involving care of veteran patients. 
This will allow VA to fulfill its primary health care mission to serve 
the needs of America's veterans by providing primary and specialized 
care, and related medical and social support services. We would oppose 
any proposal to establish a fully integrated inpatient facility with 
joint governance and management.
    We do, however, support maintaining strong relationships with 
medical affiliates. In addition to their value in developing the 
nation's health care workforce, the affiliations bring first-rate 
health care providers to the service of America's veterans. The 
opportunity to teach attracts the best practitioners from academic 
medicine along with state-of-the-art medical science to VA. Veterans 
get excellent care, society gets well-trained doctors and nurses, and 
the taxpayer pays a fraction of the market value for the expertise the 
academic affiliates bring to VA.

                                 S. 615

    S. 615 would name the VA outpatient clinic in Horsham, 
Pennsylvania, as the Victor J. Saracini Department of Veterans Affairs 
Outpatient Clinic in honor of the distinguished veteran and United 
Airlines pilot whose plane was hijacked by terrorists and flown into 
the World Trade Center on September 11, 2001. DAV does not object to 
favorable consideration of this measure by the Committee.

                                S. 1144

    S. 1144 would rename the West Side VA Medical Center in Chicago, 
Illinois, after the late Secretary ``for'' Veterans Affairs, the 
Honorable Jesse Brown.
    Jesse Brown, a combat-disabled Marine Corps veteran of the Vietnam 
War, was a fiery advocate for the rights of all veterans, especially 
those disabled in service to their country. During his nearly 5 years 
as Secretary of Veterans Affairs in the cabinet of President William J. 
Clinton, Mr. Brown earned the love and respect of his fellow veterans 
across the United States. Enactment of S. 1144 would be a fitting 
tribute to Jesse Brown, a man many see as one of the 20th century's 
greatest champions of America's veterans. Therefore, we are pleased to 
support this bill.

    THE DEPARTMENT OF VETERANS AFFAIRS LONG-TERM CARE AND PERSONNEL 
             AUTHORITIES ENHANCEMENT ACT OF 2003 (S. 1156)

    Title I of the Department of Veterans Affairs Long-Term Care and 
Personnel Authorities Enhancement Act of 2003, S. 1156, would extend 
through 2008 VA's authority to provide enrolled veterans access to 
alternative outpatient-based long-term care services such as adult day 
health care, home health aide assistance, non-institutional respite 
care, and home-based primary care. In addition, this measure would 
lower from 70 percent to 50 percent, the threshold level of service-
connected disability that would qualify a veteran as high priority for 
institutionalized care if needed. Currently, highest priority access to 
inpatient long-term care services is only granted to veterans who are 
70 percent or more disabled, unless such care is needed for the 
treatment of a service-connected disability. Title I of the measure 
would also make technical changes to VA authority to contract for 
nursing home care and allow a greater number of smaller community-based 
providers to contract with VA.
    DAV fully supports the aforementioned provisions in Title I of S. 
1156. DAV Resolution Number 154 specifically supports a comprehensive 
program of extended care services for veterans and a higher priority of 
access to inpatient long-term care by extending such services to 
veterans rated 50 percent service connected or higher.
    Title II of the bill would authorize major construction for long-
term care facilities in Beckley, West Virginia, and Lebanon, 
Pennsylvania, to accommodate a substantial elderly veteran population 
in those locations who are in need of long-term care programs. We have 
no objections to these provisions in the bill.
    Title III of the bill would convert several clinical staff 
professional positions, such as clinical social workers, psychologists, 
medical technicians, and pharmacists into ``hybrid Title 38'' status 
and permit VA increased hiring and promotion flexibility, and 
compensation at special, locally based pay scales. We have no position 
on this section of the bill.

    THE FILIPINO VETERANS' BENEFITS ACT OF 2003 (S. 1213, SECTION 2)

    S. 1213, Section 2, of the Filipino Veterans' Benefits Act of 2003 
would authorize hospital and nursing home care and medical services to 
certain Filipino veterans. DAV does not have a resolution in support of 
this bill; however, we do not object to its favorable consideration by 
the Committee as long as sufficient funding to cover the cost of the 
authorized health care is provided.

                                S. 1283

    S. 1283 would require advance notification of Congress regarding 
any action proposed to be taken by the Secretary of Veterans Affairs in 
the implementation of the VA's Capital Asset Realignment for Enhanced 
Services (CARES) initiative.
    We believe VA should provide all relevant information and 
implementation plans to Congress and veterans service organizations 
prior to taking any action proposed under the CARES initiative. Given 
the potential impact of CARES on health care delivery to our nation's 
sick and disabled veterans, the complexity of the CARES process, and 
the voluminous planning initiatives that have been submitted for each 
Network, it is appropriate for VA to keep Congress and all concerned 
with VA health care well informed about final implementation plans for 
the CARES initiatives. Therefore, we have no objection to favorable 
consideration of this measure by the Committee.

                                S. 1289

    S. 1289 would rename the VA medical center in Minneapolis, 
Minnesota, as the Paul Wellstone Department of Veterans Affairs Medical 
Center. Senator Wellstone was a true advocate for America's veterans. 
He never wavered in his commitment to improving the lives of sick and 
disabled veterans and championed many issues that were of the utmost 
importance to our veteran population.
    Enactment of S. 1289 would be an appropriate way to honor Paul 
Wellstone's outstanding commitment to veterans and would be an 
excellent tribute to his memory. Therefore, we have no objection to 
favorable consideration of this bill by the Committee. In closing, DAV 
sincerely appreciates the Committee for holding this hearing and for 
its interest in improving benefits and services for our nation's 
veterans. The DAV deeply values the advocacy this Committee has always 
demonstrated on behalf of America's service-connected disabled veterans 
and their families.
     Thank you for the opportunity to present our views on these 
important measures.

    Chairman Specter. Thank you. Thank you very much, Mr. 
Atizado.
    We now turn to Mr. William Blake, Associate Legislative 
Director of the Paralyzed Veterans of America.
    Thank you for being with us today, Mr. Blake. The floor is 
yours.

   STATEMENT OF CARL BLAKE, ASSOCIATE LEGISLATIVE DIRECTOR, 
                 PARALYZED VETERANS OF AMERICA

    Mr. Blake. Thank you, Mr. Chairman, members of the 
committee. PVA would like to thank you for the opportunity to 
testify today on the proposed legislation.
    PVA has concerns regarding S. 613, the Veterans New 
Fitzsimons Health Care Facilities Act of 2003. We stand 
committed to finding workable solutions for the delivery of 
veterans' health care in the Denver area, and we would work 
tirelessly toward this end. We also believe that a new Spinal 
Cord Injury Center is needed in the Denver area and that this 
center should move forward, along with any decisions, 
concerning Fitzsimons. PVA stands ready to work with this 
committee to ensure that veterans in Colorado are accorded the 
very best VA health care.
    PVA generally concedes to the wishes of our local chapters, 
as well as the members of other veterans' service organizations 
and the congressional delegations on issues involving naming VA 
facilities. We, as the national office of PVA, support in 
concept S. 615, as well as S. 1144, which would rename the 
Westside VA Medical Center after the late Secretary of Veterans 
Affairs, Jesse Brown.
    PVA supports the long-term care provisions of S. 1156. We 
are particularly pleased with the provisions that would extend 
through 2008 the authorities that now require the VA to provide 
to veterans enrolled in the VHA long-term care services, such 
as adult day health care, home health aid assistance, non-
institutional respite care and home-based primary care.
    PVA also appreciates the provision that would allow the VA 
to now provide nursing home care to veterans who suffer from a 
service-connected disability rated at 50 percent or greater.
    PVA supports S. 1283. We believe that it is fair and 
reasonable for Members of Congress to have a stake in the CARES 
process and comment on the decisions that the VA intends to 
make with regards to the future of VA facilities.
    PVA would like to commend Senator Graham for introducing S. 
1289, a bill that would name the Minneapolis VA Medical Center 
after the late Senator Paul Wellstone. Senator Wellstone was a 
tireless advocate for all veterans. I must reiterate, though, 
we defer to all of our local chapters, as well as other VSO's 
and State congressional delegations on these issues involving 
naming VA facilities. Again, we, as the national office, 
support in concept S. 1289.
    I would like to thank you for the opportunity to testify 
today, and I would be happy to answer any questions that you 
might have.
    [The prepared statement of Mr. Blake follows:]

   Prepared Statement of Carl Blake, Associate Legislative Director, 
                     Paralyzed Veterans of America

    Chairman Specter, Ranking Member Graham, members of the Committee, 
PVA would like to thank you for the opportunity to testify today 
concerning the proposed legislation. PVA is pleased to present our 
views on the important issues that you have addressed with this 
legislation.

 S. 613, THE ``VETERANS' NEW FITZSIMONS HEALTH CARE FACILITIES ACT OF 
                                 2003''

    PVA has concerns regarding S. 613, the ``Veterans' New Fitzsimmons 
Health Care Facilities Act of 2003.'' PVA stands committed to finding 
workable solutions for the delivery of veterans' health care in the 
Denver area, and we have worked tirelessly toward this end.
    PVA understands that constructing a new, freestanding VA medical 
center at the Fitzsimmons site is no longer feasible due to space 
limitations at the site and cost concerns. We are adamantly opposed to 
any option that would essentially integrate Denver VA medical center 
patients into the patient population of the University of Colorado 
Hospital. We are open to the many collaborative opportunities between 
the two entities, but integrating veteran patients in this manner would 
fundamentally change the way VA provides care.
    We believe that an option involving the VA leasing within a new 
facility could be a viable one, as long as many essential elements are 
included within such a plan. These elements would include governance 
issues ensuring that VA leadership has direct line authority and 
accountability for veterans' health care, ensuring dedicated space and 
a distinct VA presence, ensuring that facility staff remain Federal 
(VA) medical center employees, and finally, ensuring that current VA 
procedures and policies for the provision of appropriate 
pharmaceuticals, supplies and prosthetics be maintained. We believe 
that these issues must be resolved before blanket authority is provided 
to proceed.
    We also believe that a new spinal cord injury (SCI) center is 
needed in the Denver area, and that this center should move forward 
along with any decisions concerning Fitzsimmons. The CARES process has 
identified the Denver area as one in critical need of an SCI center. 
Any new SCI center must be operated as all current centers are, with 
dedicated services and staff. The development of a new SCI center must 
follow the requirements of the Memorandum of Understanding between VA 
and PVA allowing for architectural review, must operate in compliance 
with all existing VA policies and procedures, and must continue the 
relationship between VA and PVA allowing for site visits of SCI center 
facilities.
    PVA stands ready to work with this Committee to ensure that 
veterans in Colorado are accorded the very best VA health care.

                                 S. 615

    PVA generally concedes to the wishes of our local chapters, as well 
as other local veterans' service organization members and State 
Congressional delegations on issues involving naming VA facilities. We, 
as the National Office of PVA, support, in concept, S. 615.
    S. 615 is a bill that would name the Department of Veterans Affairs 
outpatient clinic in Horsham, Pennsylvania, as the ``Victor J. Saracini 
Department of Veterans Affairs Outpatient Clinic.'' Having served his 
military career in the United States Navy and Naval Reserve, Mr. 
Saracini understood what it meant to serve and sacrifice for this great 
country. This honor would be a fitting tribute to a dedicated 
individual whose life was taken by terrorists on September 11, 2001.

                                S. 1144

    Again, noting our deferral to our local chapters and others, we 
also support, in concept, S. 1144, a bill that would rename the 
Westside Department of Veterans Affairs (VA) Medical Center after the 
late Secretary of the VA, the Honorable Jesse Brown. Secretary Brown 
was a leading advocate for veterans across the Nation during his term. 
His efforts to ensure proper benefits and health care for all veterans, 
to include service-disabled veterans and veterans suffering from 
exposures to Agent Orange or Post-Traumatic Stress Disorder (PTSD), are 
a reason why the VA health care system is second to none in the United 
States. Allowing the Westside VA Medical Center to bear his name would 
be a fitting tribute to a man who cared so deeply for sick and disabled 
veterans for his entire professional career. Once again, I would like 
to reiterate that PVA generally defers decisions of naming of VA 
facilities to the local PVA chapter and the State Congressional 
delegation.

   S. 1156, THE ``DEPARTMENT OF VETERANS AFFAIRS LONG-TERM CARE AND 
            PERSONNEL AUTHORITIES ENHANCEMENT ACT OF 2003''

    PVA supports the long-term care provisions of S. 1156, the 
``Department of Veterans Affairs Long-Term Care and Personnel 
Authorities Act of 2003.'' We are particularly pleased with the 
provision that extends through 2008 the authorities that now require 
the VA to provide to veterans enrolled in the Veterans Health 
Administration (VHA) long-term care services, such as Adult Day Health 
Care, Home Health Aide assistance, Non-Institutional Respite Care, and 
Home-based Primary Care.
    P.L. 106-117, the ``Veterans Millennium Health Care and Benefits 
Act'' authorized eligibility for a wide range of services, alternatives 
to inpatient nursing home care, for all enrolled veterans. For many 
veterans and non-veterans with catastrophic disabilities, alternatives 
to being confined in nursing homes can be a true blessing. With the 
proper case management, home- and community-based care can provide a 
more humane and often less costly alternative to inpatient long-term 
care. PVA welcomed this provision when it was enacted. However, VA has 
begun to implement this program, not as an alternative to inpatient 
long-term care, but as an offset to required inpatient nursing home 
capacity levels. Worse, VA has been reducing inpatient levels saying 
that home and community programs would pick up that slack of that 
demand, and then failing to implement the alternative programs at 
required levels.
    Long-term care is a serious problem that PVA has focused on for 
many years. Unlike an elderly veteran who suffers a debilitating stroke 
and requires nursing home care, a young, high level quadriplegic on a 
ventilator could be facing decades of extended care services. Where, 
and how, that person receives that care is always a difficult decision. 
Fortunately, VA has established the specialized services in VA SCI 
centers that can be found nowhere else in the United States. VA nursing 
homes can provide a level of care for such a complex patient, with the 
appropriate training and monitoring of VA care givers, which can never 
be purchased or found in the private sector. Also, at stake are the 
wishes of the veteran patient and his or her family. Careful 
determination needs to be made whether this person can be cared for 
properly at home, or closer to home. In that sense, assessments need to 
be made as to the consequence of the veteran's well-being and the 
veteran's family's well-being. The entire array of VA long-term care 
services must be put into play, including respite care, home- and 
community-based care for this individual. But above all, VA needs to 
ensure that the veteran is receiving the appropriate care, by 
appropriately trained individuals, in the most appropriate setting.
    PVA also appreciates the provision that would allow the VA to now 
provide nursing home care to veterans who suffer from a service-
connected disability rated at 50 percent or greater. Currently, the VA 
can only provide these services to veterans with a service-connected 
disability rated 70 percent or greater.

        S. 1213, THE ``FILIPINO VETERANS' BENEFITS ACT OF 2003''

    PVA strongly supports S. 1213, the ``Filipino Veterans' Benefits 
Act of 2003.'' This legislation would extend health care benefits to 
certain Filipino veterans residing legally in the United States. It 
would also eliminate statutory payment rates that allow Filipino 
veterans and their survivors who live in the United States to be paid 
less than other veterans and their survivors who live in the United 
States. PVA supports the provision of health care and nursing home care 
outlined in Section 2 of this bill.
    Section 3 of the draft bill addresses a basic issue of fairness and 
equality for payments of compensation and dependency and indemnity 
compensation (DIC). Currently, Filipino veterans receive compensation 
payments at the rate of $0.50 for every dollar that other veterans 
receive. PVA supports Section 3. PVA also supports the extension of the 
operation of a regional office in the Philippines provided for in 
Section 4 and the offering of national cemetery burial to New 
Philippine Scouts provided for in Section 5.

                                S. 1283

    PVA supports S. 1283. We believe that it is fair and reasonable for 
Members of Congress to have a stake in the CARES process and comment on 
the decisions that the VA intends to make with regards to the future of 
VA facilities. This will allow the members of the Senate and the House 
of Representatives to evaluate and understand the decisions that the VA 
is making that will affect the veterans that they represent.

                                S. 1289

    PVA would like to commend Senator Graham for introducing S. 1289. 
This bill would name the Minneapolis VA Medical Center after the late 
Senator Paul Wellstone. Senator Wellstone was a tireless advocate for 
all veterans. He worked very hard to ensure that the men and women who 
served this country received the medical care and benefits that they 
rightly deserve. PVA believes this would be a fitting memorial to 
Senator Wellstone's advocacy on behalf of all veterans. Like the other 
two naming measures before us today, we support, in concept, this 
proposal. However, I must reiterate that we defer to our local 
chapters, as well as other local veterans' service organization members 
and State Congressional delegations on issues involving naming VA 
facilities. We, as the National Office of PVA, support, in concept, S. 
1289.
    Thank you for the opportunity to testify today. I would be happy to 
answer any questions that you might have.

    Chairman Specter. Thank you very much, Mr. Blake.
    Our final witness on this panel is Rick Jones, the National 
Legislative Director for AMVETS.
    The floor is yours, Mr. Jones.

  STATEMENT OF RICHARD JONES, NATIONAL LEGISLATIVE DIRECTOR, 
                             AMVETS

    Mr. Jones. Chairman Specter, Senator Rockefeller, Senator 
Murray, thank you for the opportunity to allow AMVETS to 
testify at this hearing.
    S. 613, Senator Campbell's bill, AMVETS fully supports. We 
believe this bill will allow Denver VA to serve an increasing 
veterans population, appropriations willing, and replace a 
venerable, but aging facility.
    Senate bill 615 would rename a clinic, the Victor J. 
Saracini Clinic. We support that legislation. Mr. Saracini was 
a Navy veteran, a pilot who was on the unfortunate flight that 
was brutally smashed on that disturbing day into the Towers of 
New York. We support the legislation to honor Mr. Saracini, and 
we hope that we will inspire others in his memory.
    Senate bill 1144, Jesse Brown Medical Center. We support 
this provision to name the Chicago facility after Jesse Brown. 
Jesse Brown was a man with a distinguished career. He is a man 
who dedicated his life and service to the honor of veterans, 
and we think this is a wonderful honor. We support this 
legislation.
    Senate bill 1156 would provide for long-term care 
amendments and changes, modifying that to allow 50-percent 
disabled veterans access to in-hospital care. We believe this 
presents the VA with an opportunity to be more flexible. We 
believe there are studies that do say that this could be done 
without additional exorbitant costs to VA, and we believe that 
it is in the right venue and helps veterans. We would hope that 
you would consider this bill as soon as possible.
    With regard to Senate bill 1213, the Filipino Veterans' 
Benefit Act, AMVETS is certainly mindful of the brave and 
historic contributions made by Filipino nationals during World 
War II. Their actions, as part of the allied effort, are 
legendary. Measured in these terms, we believe Filipino 
veterans of World War II certainly deserve our grateful 
appreciation for the heroic contributions they made during the 
war effort. In a fiscally unconstrained environment, AMVETS 
would most assuredly support allowing these individuals access 
to appropriate veterans' benefits.
    However, while we would certainly prefer a fiscal climate, 
where both interests of similarly situated Filipino benefits 
and American veterans could be satisfactorily accommodated, we 
find it difficult at this time to see a positive effect on our 
veterans by extending benefits to Filipino veterans at this 
time.
    With regard to Senate bill 1283, this bill would require a 
congressional notification of the CARES process. We believe the 
decisions made under CARES will have a broad effect on millions 
of veterans, and while VA is providing an opportunity for 
everyone to participate in their hearings and give their voice, 
we believe a brief review of final decisions is appropriate.
    We would mention and encourage all Senators to support an 
appropriation that equals the budget proposal that was agreed 
to earlier in the year. With regard to this legislation on 
CARES, we would recognize action taken in the House last 
Friday, which would severely restrict appropriations to VA. 
There may be unanticipated consequences of that regarding 
closure of hospitals, medical centers and clinics. We believe 
the CARES process in this legislation would help others 
understand what might occur.
    With regard to Senate bill 12----
    Chairman Specter. Would you please sum up, Mr. Jones.
    Mr. Jones. I am terribly sorry. I looked, and I wondered 
why the clock was going the wrong direction. I am sorry, sir.
    Chairman Specter. Go ahead. Sum up.
    Mr. Jones. I would only sum up with regard to Senator 
Wellstone's bill. We support that. We look for another 
champion. Senator Wellstone stood strongly for veterans 
continually. We look for someone to stand for veterans and help 
restore the honor due American veterans.
    [The prepared statement of Mr. Jones follows:]

  Prepared Statement of Richard Jones, National Legislative Director, 
                                 AMVETS

    Chairman Specter, Ranking Member Graham, and members of the 
Committee:
    Thank you for the opportunity to present testimony to the Veterans' 
Affairs Committee on the six bills subject to this legislative hearing. 
AMVETS is pleased to present our views regarding S. 613, Veterans' New 
Fitzsimons Health Care Facilities Act of 2003; S. 615, Victor Saracini 
Outpatient Clinic; S. 1144, Jesse Brown Medical Center; S. 1156, the 
Department of Veterans Affairs Long-Term Care and Personnel Authorities 
Enhancement Act of 2003; and S. 1213, Filipino Veterans' Benefits Act 
of 2003; S. 1283, providing CARES notice; and S. 1289, to name the 
Minneapolis VAMC after Senator Paul Wellstone.
    Mr. Chairman, AMVETS has been a leader since 1944 in helping to 
preserve the freedoms secured by America's Armed Forces. Today, our 
organization continues its proud tradition, providing, not only support 
for veterans and the active military in procuring their earned 
entitlements, but also an array of community services that enhance the 
quality of life for this nation's citizens.
  s. 613, veterans' new fitzsimons health care facilities act of 2003
    Senator Campbell's bill, S. 613, would move the Denver VA center 
from its current location to the former Fitzsimons Army Medical Center. 
The move would coincide with a move to the Fitzsimons site by the 
University of Colorado's Health Sciences Center. This relocation is 
warranted to maintain the close working relationship between the Denver 
VA and the University. It will also allow the Denver VA to serve an 
increasing veterans population, appropriations willing, and replace a 
venerable, but aging, facility. AMVETS fully supports this bill and the 
wise use of Federal resources it employs.

      S. 615, A BILL TO NAME THE VA OUTPATIENT CLINIC IN HORSHAM, 
   PENNSYLVANIA, AS THE ``VICTOR J. SARACINI DEPARTMENT OF VETERANS 
                      AFFAIRS OUTPATIENT CLINIC''

    S. 615, introduced by Senator Santorum, would name VA outpatient 
clinic in Horsham, Pennsylvania, as the ``Victor J. Saracini Department 
of Veterans Affairs Outpatient Clinic''. Victor J. Saracini, a Navy 
veteran and father of three, was a captain with United Airlines who 
unfortunately died on September 11, 2001, when his hijacked Boeing 767 
was crashed into the World Trade Center's South Tower by al-Qaeda 
terrorists. Boeing pilot Saracini and his passengers were some of the 
first casualties in the war against terrorists and the countries that 
support them. We will not forget when those towers fell and the 
sacrifice of all those Americans who died on that disturbing day. We 
support this legislation to honor Mr. Saracini and inspire others in 
his memory.

                  S. 1144, JESSE BROWN MEDICAL CENTER

    S. 1144, introduced by Senator Durbin, would name the VA health 
care facility located at 820 South Damen Avenue in Chicago, Illinois, 
as the ``Jesse Brown Department of Veterans Affairs Medical Center''. 
Those of us in the veterans community are well aware of the service and 
career of the late Secretary Brown. He served our Nation as a marine 
and suffered a disabling wound in Vietnam. After his service in Vietnam 
and rehabilitation of his wounds, Secretary Brown began a long and 
admired career as executive director of the Disabled American Veterans. 
From 1993-1997, Secretary Brown headed VA and worked hard against 
strong odds to assure that the services of VA helped meet the nation's 
obligations to America's veterans. AMVETS supports this legislation to 
honor a man who dedicated his life and career to the service of our 
Nation and its veterans.

 S. 1156, DEPARTMENT OF VETERANS AFFAIRS LONG-TERM CARE AND PERSONNEL 
                  AUTHORITIES ENHANCEMENT ACT OF 2003

    One of the most critical missions of the VA system is the service 
offered to those in need of long-term care. For these critically 
injured and disabled veterans, VA provides the most competent and 
scientifically advanced care available. Under current law, veterans 
with service-connected disabilities rated 50 percent or greater have 
highest priority access to care if it is provided by an outpatient 
clinic or hospital.
    To be eligible for inpatient based long-term care, a service-
connected disabled veteran must be rated 70 percent or greater. This 
disparity in access was brought about by enactment of Public Law 106-
117, the Veterans Millennium Health Care and Benefits Act. The 70 
percent rating threshold on inpatient long-term care contained in 
Public Law 106-117 sought to ensure VA long-term care facilities did 
not become overwhelmed and that levels of care could be maintained.
    However, evidence since enactment of Public Law 106-117 shows us 
that service-connected disabled veterans rated 50 percent to 70 percent 
can be accommodated without undo burdens placed on the system. AMVETS 
supports the Chairman's bill, S. 1156, and its lowering of the 
eligibility rating from 70 percent to 50 percent for inpatient-based 
long-term care. We are also in support of changes to the hiring process 
for clinical professionals for the VA system that mirror those used in 
hiring physicians and nurses. The psychologists, pharmacists, and 
social workers that attend to our veterans are integral to their care 
and well-being. The hiring changes sought by the bill will allow VA to 
hire these professionals in a timely, flexible manner and seek the best 
qualified candidates available.

            S. 1213, FILIPINO VETERANS' BENEFITS ACT OF 2003

    Mr. Chairman, AMVETS is certainly mindful of the brave and historic 
contributions made by Filipino nationals during World War II. Their 
actions as part of the allied effort are legendary. Measured in these 
terms, we believe Filipino veterans of World War II certainly deserve 
our grateful appreciation for their heroic contributions they made 
during the war effort, regardless of where they may reside. And, in a 
fiscally unconstrained environment, AMVETS would most assuredly support 
allowing these individuals access to appropriate veterans benefits.
    However, despite the efforts of the Chairman and this Committee, VA 
funding has been chronically deficient for far too long. With this in 
mind, AMVETS must offer its opposition to S. 1213, the Filipino 
Veterans' Benefits Act of 2003, introduced by the Chairman at the 
request of Secretary Principi. By the Secretary's own figures, this 
bill would cost VA an additional $16.2 million for Fiscal Year 2004 and 
total in excess of $130 million over the next decade. These are 
expenditures VA can little afford to make.
    AMVETS certainly values the contributions and sacrifices made by 
our Filipino comrades in arms during World War II, yet we believe the 
interests of American veterans must continue to come first. We would 
certainly prefer a fiscal climate where both the interests of similarly 
situated Filipino beneficiaries and American veterans could be 
satisfactorily accommodated. However, it is difficult to see a positive 
effect on our veterans by extending benefits to Filipino veterans, at 
this time.

S. 1283, A BILL TO REQUIRE CONGRESSIONAL NOTIFICATION ON ANY VA ACTION 
    TO IMPLEMENT THE CAPITAL ASSET REALIGNMENT FOR ENHANCED SERVICES

    S. 1283 would direct the Secretary to submit CARES recommendations 
to Congress for a 60-day review period. The bill would provide Congress 
with a more intimate role in the decision process regarding possible 
reductions, closures, and related decisions that would have an impact 
on delivery of health care to our nation's veterans. The members of 
AMVETS support giving our elected Members of Congress a higher degree 
of review in the CARES process than is currently contemplated. AMVETS 
supports the goals of the CARES process, namely to reduce VA 
expenditures on the maintenance of obsolete or unused facilities and 
better apply those resources to support improvements in VA health care 
and provide for future services to those who wore our country's 
military uniform. The decisions made under CARES will have a broad 
affect on millions of veterans and, while VA is providing an 
opportunity for our voice to be heard, we believe a brief review of 
final decisions is appropriate.

  S. 1289, A BILL TO NAME THE DEPARTMENT OF VETERANS AFFAIRS MEDICAL 
         CENTER IN MINNEAPOLIS, MINNESOTA, AFTER PAUL WELLSTONE

    S. 1289 would provide a fitting honor to former Senator Paul 
Wellstone, a dedicated legislator who continually fought to recommit 
our country to its sacred responsibility to care for the men and women 
who serve in the military. Senator Wellstone understood that our Nation 
has a moral obligation to those brave men and women who commit 
themselves to defend the cause of freedom. As AMVETS National Commander 
W.G. ``Bill'' Kilgore said following the loss of Senator Wellstone,

          ``His unwavering support year after year of adequate funding 
        for veterans health care, in particular, was something we could 
        always count on. Similarly, he championed the cause of homeless 
        veterans to ensure that they were not forgotten and that their 
        needs were addressed by the Nation they served. Though not a 
        veteran himself, he brought energy and commitment to issues 
        important to veterans and their families. He was a fighter and 
        leading voice and, if ever there was a true friend of America's 
        veterans, Senator Wellstone was it.''

AMVETS fully supports this bill.
    This concludes our testimony. Again, thank you for the opportunity 
to testify on this important legislation, and thank you, as well, for 
your continued support of America's veterans.

    Chairman Specter. Thank you very much, Mr. Jones.
    Mr. Jones. Thank you, sir.
    Chairman Specter. We are going to have 3-minute rounds. As 
I say, we are anticipating votes here soon.
    Let's begin with the issue of Senate bill 1156. That bill 
would lower the threshold rate from 70- to 50-percent of 
service-connected disability for purposes of creating 
eligibility for mandated inpatient long term care by VA. How 
significant do you consider that bill to be, starting with you, 
Ms. Wiblemo?
    Ms. Wiblemo. Well, I think it is very significant, and we 
fully support that.
    Chairman Specter. Mr. Hayden, do you think that would be 
especially helpful for the veterans?
    Mr. Hayden. I do, sir. The VFW actually has a resolution, 
605, which was approved by our voting delegates to our national 
convention last year, that calls on Congress to mandate and 
provide funding for the provision of nursing home care for all 
veterans, not just 50 percent.
    Chairman Specter. How significant do you consider that 
provision, Mr. Atizado?
    Mr. Atizado. Well, it is significant enough as well with my 
colleague here that our members passed a resolution last year 
requesting that it be extended, long-term care be extended well 
below 70-percent service connected, especially in a climate 
where long-term care is a rather expensive service line to 
provide. We look to VA to champion that cause, especially for 
those who have served this Nation and lost so much.
    Chairman Specter. Mr. Jones, what do you think about that 
reduction in disability percentage threshold?
    Mr. Jones. We believe the chairman is on the right path, 
and that is the correct direction to go, and we believe that 
this could be accommodated by VA, without of course 
overwhelming cost.
    Chairman Specter. Do you dissent, Mr. Blake?
    Mr. Blake. No, sir, I do not. Mr. Chairman, we would 
certainly support this provision.
    Chairman Specter. Mr. McClain, a couple of questions for 
you. I want to ask them before my time runs up.
    There has been an estimate by VA that S. 1153 would cost 
$500 million a year. I would like you to respond to how the VA 
arrived at that figure.
    The other question that I want to put in before I get a red 
light here is by using a hybrid Title 5, Title 38 hiring 
system, VA would be able to avoid many processes for hiring set 
out by the Office of Personnel Management.
    While that sounds good, would those procedures preclude 
favoritism and other abuses?
    I still have 1 second left. You may proceed.
    [Laughter.]
    Mr. McClain. Thank you, Senator.
    Our estimate as to the cost of reducing the service-
connected percentage from 70 percent to 50 percent was based on 
actuarial models that the VHA Actuary and Economic Office 
produced. We will be glad to provide more detail for the record 
and also a briefing for your staff if you desire.
    Regarding the Title 38-Title 5 hybrid issue, we already 
have the Title 38 hybrid personnel hiring authority in place. 
This would extend the authority to cover some additional 
medical specialties. The idea behind the entire system is to be 
able to hire qualified people at a very competitive salary rate 
much quicker than we could under Title 5.
    We discovered that, especially in the scarce medical 
specialties, we were losing people to the civilian sector 
because we were not able to offer them a position within what 
they considered to be a reasonable period of time, and they 
were accepting employment with civilian employers.
    We found that the Title 38 hybrid system allows us to 
respond much more quickly and allow us to make a competitive 
offer to these scarce medical specialists and bring them on 
board at VA.
    Chairman Specter. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Mr. McClain, you heard my opening statement. Last week in a 
phone call, the VA gave direction to the VISN 21 leadership in 
my State to include closure of three VA facilities, American 
Lake, Walla Walla and Vancouver. Can you explain to this 
committee why headquarters is demanding a significantly redrawn 
plan for Washington State and VISN 21?
    Mr. McClain. Senator, I am sorry I cannot. I am not 
specifically aware of this event that you are talking about. We 
did receive your correspondence, dated July 24th, essentially 
laying out the same parameters. Obviously, we have not had a 
chance yet to respond to this, but we will respond specifically 
to your----
    Senator Murray. Can you tell me the timing on that?
    Mr. McClain. As to when you will receive it?
    Senator Murray. When we will get a response because my 
understanding is, from your under secretary who was in my 
office yesterday, that they will have their plan forwarded by 
the end of this week or early next week. We had 8 days to 
respond to the fact that you were closing or potentially 
closing three facilities.
    Mr. McClain. Once again, I cannot address that in 
particular. I am familiar with the CARES process, which you 
have referenced in your correspondence, and part of the CARES 
process is that there is no firm national plan at this point. 
In other words, there are a lot of recommendations that need to 
be vetted nationally across-the-board.
    The next step I believe is for the Secretary to provide a 
draft national plan to the CARES Commission to hold hearings, 
and the hearings will be held. They will be public, and there 
will be plenty of opportunity for everyone, including in the 
State of Washington, to have input into the draft plan before 
it becomes final.
    Senator Murray. Well, the VISN 21 did give their plan. I 
think the Department has had it since April, and what it sounds 
like to all of us is that they did not like that response 
because it did show the increased need for care in my State and 
with our veterans population. It looked like, after months of 
reviewing it, the VA decided to rewrite the rules to get a 
response that they wanted, rather than listening to what the 
VISN 20 recommendations were in my State, and then gave them 8 
days to say how they would rewrite their plan to close three 
facilities.
    Mr. McClain. I understand your point. Unfortunately, I 
cannot talk specifically to those allegations, but we will 
respond.
    Senator Murray. Well, let me just tell you that American 
Lake, which is Tacoma, provides significant care. It has 
primary care, a women's health clinic, a 76-bed nursing home 
unit, a substance abuse treatment program, a 60-bed homeless 
domiciliary and a post-traumatic stress treatment program, 
numerous programs that they put there.
    The VISN report says that they will see a 33-percent 
increase in enrolled veterans in the Western Washington market 
that is served by American Lake and the Seattle Medical Center. 
So I do not understand how this now, they sent that to you and 
what you all send back is we did not like your report. We want 
you to close this facility.
    I do not understand how that responds to the needs of our 
veterans. I know that people from the VA, obviously, Leo McKay, 
your deputy secretary said, and I will read you his quote,

          ``We will work with veterans, VA employees, university 
        affiliates and local and national elected officials to ensure 
        everyone's concerns are heard as we enhance the quality of 
        veterans' health care.''

    Well, this does not sound to me like they are working with 
anybody.
    Mr. McClain. Well, once again, I cannot address the 
specific question you have laid out in your correspondence, but 
there is still a lot of work to be done both by the VA, and by 
the public and the veterans' service organizations in reviewing 
the draft plan, which will be sent to the CARES Commission in 
the near future.
    Senator Murray. Well, Mr. McClain, I know you knew I was 
going to ask these questions today. So I find it kind of 
astounding that we do not hear any responses. Your office did 
call to ask what I was going to ask about. So I know you know I 
was going to ask about this.
    I will tell you that the veterans in my State are up in 
arms over this. Mr. Chairman, they worked very hard to put 
their recommendations forward, and then to be given 8 days' 
notice that they have to change their whole plan, and to change 
the whole VISN to close three facilities is just an amazing 
turn of events, and I am very upset about this, and I would 
like to work with the committee to continue to work with this.
    Chairman Specter. Well, Senator Murray, you articulate a 
real issue, and we will be looking forward to responses from 
the Veterans Administration, Mr. McClain.
    Mr. McClain. Yes, sir.
    Response to Written Question Submitted by Hon. Patty Murray to 
      Tim McClain, General Counsel, Department of Veterans Affairs
    Question. Can you explain to this committee why headquarters is 
demanding a significantly redrawn plan for Washington State and VISN 
20?
    Response. The Under Secretary for Health requested changes to the 
market plans as a result of reviews conducted during preparation of the 
draft National CARES Plan. This review was an integral part of the 
design of the CARES process to ensure that the plan was truly national 
in scope and not simply a compilation of the individual VISN market 
plans. Rather than undercutting the CARES process, this review and the 
proposed changes to the market plans were an effort to ensure that 
national, system-wide issues are adequately addressed.
    When the Under Secretary reviewed the results of the market plans, 
he concluded that there were opportunities to realign campuses to 
improve the quality, access, and resource use by examining 
opportunities to move these campuses from inpatient to outpatient 
operations, i.e. by converting from 24-hour, 7-days/week to 8-hours, 5-
days/week operations. He asked the VISN's to determine how this could 
be accomplished at selected sites with the provision that there would 
be no loss of services to veterans.
    The realignments focused on moving long-term care sites to sites 
with an acute care presence because this would also improve access to 
diagnostic and therapeutic services for the long-term care population. 
In addition, the current physical environment in many sites, such as 
Walla Walla and White City, would require significant capital 
investment in older buildings. It would be more expensive to renovate 
such buildings than it would be to build a new Nursing Home, for 
example. Many patients served by long-term care facilities are often 
more dispersed geographically than those served by acute care 
facilities, and where contracting is combined with relocation of beds 
to other VAMC's, access may be improved.
    With respect to the Vancouver campus, we believe we have an 
opportunity to put the campus to better use. It appears to be 
underutilized for inpatient care services, and we may have an 
opportunity to improve access to outpatient services at another 
location.
    The only changes in the VISN 20 market plan involved the three 
facilities indicated in the realignment analysis mentioned above.

    Chairman Specter. We have just been notified the vote is in 
process. We have 10 minutes remaining.
    Senator Rockefeller.
    Senator Rockefeller. I will try to stick to 3 minutes, Mr. 
Chairman. You have got 3 minutes on there.
    First of all, I have to say that I am pleased, under 1156, 
and incidentally, Mr. McClain and Dr. Murphy, do not mess with 
Patty. You will end up in trouble. She is an appropriator.
    I am very pleased at both the Beckley and the Lebanon, 
Pennsylvania, VA Medical Centers both are on the VA's list of 
priority medical construction projects, and I am very happy 
about that. But my question for you is this, and I think it is 
an impossible one for you to answer, and I am trying to make it 
appear that it is impossible for you to answer.
    The Veterans Millennium Health Care Benefits Act in 
November 1999 required VA, and we worked hard to get this done, 
the first time since Medicaid, to provide non-institutional 
long-term care to all enrolled veterans who need it. It became 
law. We are now reauthorizing that.
    A GAO report released in May confirmed my suspicions that 
these services are not being provided consistently throughout 
VA, and as a matter of fact, they are not even being provided 
consistently within my State of West Virginia. Now, if there is 
anything, people, nobody escapes in life, it is the need for 
long-term care. Nobody escapes that, unless they are hit by an 
automobile. I mean, nobody gets out.
    So I understand that the VA is taking action to increase 
access to non-institutional long-term care service and to make 
access even more available across networks and facilities, and 
I am glad about that.
    My question for you is this: If we expand the eligibility 
for VA nursing home care to include those veterans who have 50-
percent service-connected disability or higher--and I favor 
that--what effect do you think this is going to have on your 
ability to provide both that? I ask both Dr. Murphy and Mr. 
McClain to provide both long-term care and nursing home. I do 
not think you have the budget to do it.
    How are you going to do this?
    Mr. McClain. First of all, I would certainly agree with 
you, Senator, that that is a question that I am probably not 
going to be able to answer. We believe that--of course, we are 
speculating--but we are trying to determine how this reduction 
from 70 percent to 50 percent service connected is going to 
have an impact. We think, first of all, as Senator Specter 
said, that it is going to cost us money, which you have just 
brought up. We also think that it may impact the speed with 
which we are trying to implement long-term care, extended care 
services----
    Senator Rockefeller. Do you remember how long that took to 
get the rules and regulations going?
    Mr. McClain. Yes, sir. Yes, sir, it took quite a while.
    Senator Rockefeller. So I would just go on record, knowing 
I do not have any time here, that I am very, very concerned 
about this. Non-institutional long-term care is sacred for 
veterans. So are nursing homes. We under fund veterans' health 
care, your request and us. We are all at fault, and they are 
both necessary, and I have a feeling you are going to do more 
on nursing home than you are on non-institutional care, and 
that is what I fear. I just want to make that clear.
    Thank you, Mr. Chairman.
    Do you want to answer, Dr. Murphy?
    Dr. Murphy. I would like to comment.
    We agree with you, Senator, that it is important to balance 
the availability of non-institutional and institutional long-
term care and within available resources, we will do our best 
to do that. VA will not under fund the non-institutional care 
in favor of institutional care.
    Senator Rockefeller. Thank you.

 Prepared Statement of Hon. John D. Rockefeller IV, U.S. Senator from 
                             West Virginia

     Thank you, Mr. Chairman, for scheduling this Committee hearing 
today giving us an opportunity to discuss some critically important 
issues concerning VA health care.
    Last week, many of us watched as Army Private First Class Jessica 
Lynch returned home to West Virginia. Jessica was flown home from the 
Walter Reed Army Medical Center, where for several months she had been 
receiving treatment and rehabilitation for injuries she received during 
an ambush in southern Iraq on March 23. The Nation and the world were 
waiting to see her again, and to hear from her for the first time since 
her rescue from a hospital in Nasiriyah. It was a proud day, indeed.
    Jessica, and all the young men and women serving today in Iraq, and 
on active duty around the world, remind us of why the Department of 
Veterans exists, and they are also a gentle reminder of the important 
work we do here on the Senate Committee on Veterans' Affairs.
    I believe that what we have accomplished over the years in this 
Committee has been some of the most important work done in the United 
States Senate. And I look forward to the important work that lies 
ahead.
    Today, among other topics, we will be discussing crucial 
legislation relating to VA health care. And while all of the bills on 
the agenda are important, 1'd like to use my opening statement to say 
just a few words about two specific issues--the CARES initiative and 
long-term care for veterans.
    I am pleased to be a cosponsor of Senator Graham's bill that would 
require VA to give Congress a 60-day period for review of the CARES 
recommendations before any action can be taken by the Secretary of the 
Department of Veterans Affairs.
    While I understand the importance of the concept of CARES, it is 
critical that we don't go too far with this initiative. For no matter 
how well the VA health care system provides preventative care for 
veterans, there remains a certainty. Because of the enormous increase 
in enrolled veterans, the ages of the majority of our veterans today, 
and the very nature of the diseases and injuries seen at our VA medical 
centers, we will continue to need hospital beds and specialty care 
close to where our veterans live. Of particular concern in this process 
is how VA accounts for the tremendous demand in both long-term care and 
mental health care.
    On the subject of long-term care for veterans, I know that I don't 
have to remind anyone here that this has been, and remains, a priority 
for me. The extension of the long-term care services mandated by the 
Millennium Health Care Bill, both non-institutional and nursing home 
care, is critically important to veterans and their families in every 
State in this Nation. In March of this year, I introduced S. 836 that 
would extend these long-term care initiatives, so I am glad to see this 
provision included in S. 1156.
    Unless the provisions of the current law are extended, veterans' 
long-term care is in jeopardy, and that is just unacceptable. I am not 
happy that it took VA 2-years after the mandate to issue a directive to 
the medical centers about the non-institutional home care package 
available to all enrolled veterans, and that delay has left little time 
to effectively review the success of the program or to make appropriate 
adjustments.
    I look forward to hearing more about the provision to expand the 
eligibility for VA nursing home care from 70 percent service-connected 
veterans to 50 percent. Many of our aging veterans are suffering from 
strokes or debilitating diseases, such as Alzheimer's or Parkinson's. 
Some have very limited resources and depend upon VA. And in spite of 
the critically important non-institutional long-term care services 
available to all enrolled veterans, a number of spouses are still 
unable to keep their loved ones at home because the demand for care is 
so great.
    While I wish VA could provide nursing home care to all enrolled 
veterans--just as they are suppose to be doing with the non-
institutional long-term care services--and while I support expanding VA 
nursing home care to include service-connected veterans rated above 50 
percent, it would be imperative that VA receive the resources to be 
able to do both. Otherwise, we could be adding a benefit at the expense 
of another.
    Recently, I ran across a copy of a House Committee on Veterans' 
Affairs Subcommittee hearing held in my State of West Virginia in the 
spring of 1984--almost 20 years ago--and almost a year before I came to 
the Senate. The Subcommittee Chairman then, Bob Edgar from the State of 
Pennsylvania, said at that hearing, and I quote:

          ``One of the important purposes of our field hearings is to 
        learn how the medical center directors are planning for the 
        significant increase in demand for health care caused by the 
        aging veteran population. This rapidly aging population not 
        only places a heavy demand on the VA for nursing home care, but 
        also hospital care resulting from acute episodes of chronic 
        illness. We must cope with the present demand. However, we must 
        also be prepared to accommodate the future demand.''

    Today, 20 years later, the same is true. Today's hearing gives us 
an opportunity to again address these vital concerns, and make every 
effort to make sure we are prepared--both today and tomorrow. Thank 
you.

     Chairman Specter. Thank you very much, Senator 
Rockefeller.
    Well, thank you all very much for coming, ladies and 
gentlemen. We are always under time constraints. We regret that 
time is so limited. It may be worth repeating, in less than 3 
minutes, the sequence of events at the memorial service for 
Ambassador Walter Annenberg which was recently held in 
Philadelphia, and the speakers included President Ford, and 
Secretary of State Colin Powell, Arlen Specter and others. We 
were all limited to 3 minutes.
    So thank you all very much.
    [Whereupon, at 4:44 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

          Prepared Statement of Hon. Ben Nighthorse Campbell, 
                       U.S. Senator From Colorado

    Mr. Chairman, thank you for holding this hearing on proposed 
legislation relating to VA health care benefits and construction 
projects.
    And, I thank you for this opportunity to talk with you about my 
legislation, S. 613, the Veterans' Fitzsimons Health Care Facilities 
Act, which authorizes the VA to move its Denver medical facilities to 
the former Fitzsimons Army base in Aurora.
    I want to say right in the beginning, that I realize that moving 
the VA hospital to the Fitzsimons campus will cost a lot of money. I 
understand, too, that you, Mr. Chairman, have a project in Lebanon that 
you have been wanting to fund for some time, and that you, Bob, have 
projects in your State that need attention.
    But, every now and then an opportunity arises that should not be 
passed up . . . one that will not only save money, but one--which if 
passed up--will cost more in the future. The VA relocation to 
Fitzsimons is that kind of project.

                          WHAT YOUR BILL DOES

    My bill would authorize the Secretary of Veterans Affairs to 
construct, lease or modify major medical facilities at the site of the 
former Fitzsimons Army Medical Center.
    Specifically, it would authorize $300 million for direct 
construction, or a combination of direct construction and capital 
leasing, or $30 million a year for capital leasing alone.
    And it would give the Secretary of Veterans Affairs the authority 
to choose how best to proceed with this project. This authority would 
prevent funds for this project from being taken from patient care.
    It also instructs the Secretary to work with the Department of 
Defense in planning a joint Federal project that would serve the health 
care needs of active duty Air Force and the VA.

                         HISTORY OF THE PROJECT

    Mr. Chairman, since the end of WWII the Denver Veterans Medical 
Center, and the University of Colorado Health Sciences Center and the 
University of Colorado Hospital have been partners at the University's 
campus in Denver. This partnership has included the sharing of faculty, 
medical residents and staff, and access to equipment.
    The University of Colorado Health Sciences Center has already moved 
its facilities from its overcrowded location near downtown Denver to 
the Fitzsimons site, a decommissioned Army base, which is eight miles 
away. This leaves the VA Medical facilities in the downtown area 
without the advantages of the shared facilities.
    At the new 217 acre campus, an outpatient and cancer pavilion, an 
eye institute, and a Native American Health Sciences building have 
already been completed. Research towers are being built and Children's 
Hospital in Denver has agreed to relocate to the complex. On the site, 
too, is a State Veterans' Nursing Home.

                                THE PLAN

    As I understand, the relocation plans would have the VA build its 
own ambulatory care center. This new Federal tower would be located 
next to the University of Colorado Hospital. The VAMC would share 
expensive facilities and services such as operating rooms, recovery 
beds, imaging and radiology, labs and other specialized services with 
the University of Colorado Hospital. And, if the DOD decides to be part 
of the project, it would share part of the building and use beds in 
this new Federal tower.

                            REASONS TO MOVE

    Mr. Chairman, the need to move is pressing. The present VA hospital 
was built in the 1950's. While still able to provide service, the core 
facilities are approaching the end of their useful lives and many of 
the patient care units have fallen horribly out of date.
    The cost of maintaining the current VA hospital to satisfy 
accreditation levels until 2020 has been estimated to be $233 million, 
and estimates to rebuild the facility in 2020 are $377 million, in 
today's dollars. The estimated cost to relocate the VA Hospital to 
Fitzsimons is $300 million. And, the cost to the VA could be as much as 
10 percent less with the DOD deciding to be part of the project.
    Studies indicate that co-location with the University on a state-
of-the-art medical campus would be a cost effective way to give 
veterans the highest quality of care.
    Veterans who have highly specialized needs would have easy access 
to the best diagnostic and treatment programs in the nation.
    A move to the new location would also provide a tremendous 
opportunity to showcase a nationwide model of cooperation between the 
University, the Department of Veterans Affairs and the Department of 
Defense.

                        SUPPORT FOR THE PROJECT

    This project has the support of more than 45 local, State and 
national Veterans' Service Organizations, the entire Colorado 
delegation, the United Veteran's Committee of Colorado which represents 
42 VSO's, and the University of Colorado. Also, the Government 
Employees Local 2241 has expressed its approval for this proposal.
    Recently, I have had conversations with Secretary Principi and 
contact with Dr. Robert Roswell's office and understand that they think 
now is the time to consider the relocation.

                                CLOSING

    Mr. Chairman, we owe it to our veterans to give them the most up-
to-date, comprehensive and cost-efficient medical care available.
    I believe the relocation of the Denver Veterans Medical Center to 
the former Fitzsimons site offers us a unique opportunity to provide 
the highest quality medical care for our veterans.
    I look forward to working with this committee in passing S. 613 and 
bringing this project to completion.
    Thank you, Mr. Chairman.

                               __________

   Prepared Statement of Hon. Zell Miller, U.S. Senator From Georgia

    Good afternoon. I want to thank the Chair and Ranking Member for 
having this hearing to address health care related legislation.
    At a time when over 150,000 service members are deployed in Iraq, 
it is important for Congress to address the circumstances and concerns 
of our soldiers. As we all know, when the Active Duty and Reservists 
return from fighting in Iraq, they may need the services offered by the 
VA. It is vitally important that when these soldiers return, they 
receive the services they have earned.
    Even though I understand the VA's budget dilemma, limiting the 
commitment to our veterans comes at great expense. It is my hope that 
Congress and the Administration can continue to work together to find 
solutions that adequately address VA's health care budget concerns, 
without greatly limiting necessary services to our veterans.
    We have the best military in the world. It is essential for us to 
do everything we can to help these men and women when they return from 
combat or separate from the Service. Many of these bills will ensure 
that veterans are fairly compensated for putting their lives on the 
line to protect the Nation's freedom.
    I thank the Chair.

                               __________

       Prepared Statement of Bobby Harnage, National President, 
              American Federation of Government Employees

    Dear Chairman Specter and Ranking Member Graham: On behalf of the 
American Federation of Government Employees (AFGE), AFLCIO, and the 
600,000 Federal and DC government employees we represent, we wish to 
raise our concerns regarding S. 1156, S. 613 and S. 1283, which will be 
considered by the Senate Veterans Affairs Committee.

              S. 1156--VETERANS CANTEEN SERVICE EMPLOYEES

    We greatly appreciate that Chairman Specter included in S. 1156 a 
provision to address the inequity in the Veterans Service Canteen 
(VCS), whereby managers but not rank-and-file employees are able to 
transfer to competitive service positions within the Department of 
Veterans' Affairs (VA).
    VCS employees who are non-supervisors work in food service and 
sales clerk positions at the VA. According to OPM, working full-time 
these employees earn an average salary of $18.192 (before taxes), after 
an average of 8 years of service. VSC employees are Federal employees 
appointed under 38 U.S.C-7802, which is a merit-based system.
    Appointments for V5C employees, however, are only subject to the 
provisions of Title 5 with respect to veterans' preference, workers' 
compensation, and retirement. VCS employees are paid through non-
appropriated funds. Because VCS employees are appointed without regard 
to Title 5 competitive civil service rules these workers are not 
considered in the Federal civil competitive service. As a result, rank-
and-file VSC workers are prohibited from applying for VA food service 
positions, nursing assistant positions or any jobs at the VA as an 
internal competitive service candidate.
    Even after 8 years of service at the VA, a VSC employee cannot 
transfer to another job at the VA without first going through a civil 
service competition, as if he or she had never been a Federal employee. 
This is wrong and unfair.
    VSC supervisors and managers are also appointed under the same 
statutory authority (38 U.S.C. 7802) but they can easily transfer into 
other Federal jobs as if they were originally appointed under Title 5 
competitive service. The Office of Personnel Management (OPM) has 
approved a personnel interchange agreement for VSC managers only. The 
VA has repeatedly requested approval of a similar interchange agreement 
for VSC hourly employees but OPM has rejected these requests.
    AFGE supports Section 302 of S. 1156 to allow VCS employees to 
transfer into competitive service jobs more easily. We believe this 
will provide upward mobility for dedicated employees and could help VA 
recruit needed nursing assistant staff.
    In the 10th Congress the Senate Veterans Affairs Committee approved 
legislation (S. 2043) which contained an identical provision, but the 
Senate did not have an opportunity to vote on the legislation prior to 
the end of the 107th Congress. We appreciate the bipartisan support 
this provision has received and ask that the Senate Veterans Affairs 
Committee continue to support the provision concerning canteen workers.

         S. 1156--CONVERSION OF TITLE 5 HEALTH CARE WORKERS TO 
                     TITLE 38-TITLE 5 HYBRID STATUS

    We understand that Section 301 of S. 1156, which authorizes the 
Secretary of the VA to convert possibly all Title 5 positions in the VA 
to Title 38-Title 5 status, is intended to assist the VA in recruiting 
and retaining needed staff. We have long advocated that the VA is 
understaffed and look forward to working with the Committee on a number 
of approaches to ensure that the VA maintains safe and adequate 
staffing levels which are needed to ensure veterans with timely access 
to health care.
    We have a number of concerns with the conversion of staff to hybrid 
status as currently drafted in Section 301.
    Section 301 specifically lists 19 new occupations to covert into 
hybrid status but the provision gives the VA Secretary carte blanche to 
convert virtually all Title 5 employees into hybrid Title 38-Title 5 
status. Section 301 authorizes the Secretary to designate other 
positions as necessary to the medical care of veterans into the Title 
38-Title 5 hybrid status. AFGE is concerned that could be viewed as a 
broad mandate for the Secretary to move every position in the Veterans 
Health Administration out of Title 5 and into Title 5-Title 38 status. 
AFGE opposes giving the Secretary such broad unilateral discretion to 
change the legal rights of such a broad group of employees.
    We urge the Committee to consider the possible unintended and 
adverse consequences of converting any employee from Title 5 to Title 
38-Title 5 hybrid status.

1. Loss of Collective Bargaining and Union Representation
    Current Title 5 employees who work in the VA and are represented by 
AFGE have negotiated procedures for promotions to make sure that 
promotional opportunities are posted and decisions are made fairly, 
under equitably procedures and based solely on job-related criteria. 
Employees can grieve when such negotiated equitable and merit-based 
procedures and requirements are violated. Should Section 301 of S. 1156 
be adopted by the Committee as currently drafted all employees who are 
converted to hybrid status will lose these negotiated rights.
    Many current hybrid employees and Register Nurses have repeatedly 
voiced concerns with the arbitrariness, subjectivity and inconsistency 
in their promotion process, which is totally at VA's unilateral 
discretion to establish and change. We see no reason to take this 
flawed system as the model for thousands of VA employees who currently 
can negotiate a fairer, more objective process.
    We fail to see how it is in the interests of VA's ability to retain 
and recruit employees to erode the ability of professionals to 
participate in setting the procedures for merit-based promotions.
    AFGE stands ready to work with the Committee to ensure that this 
unintended and adverse consequence of converting thousands of employees 
to hybrid status is corrected

2. Potential Erosion of Pay
    Under 38 USC 7451, the Secretary has the authority to place all 
hybrid occupations into the pay system for VA's Registered Nurses. 
Specifically, 38 USC 7451(a) (2) defined positions covered under the VA 
RN pay system as ``(A) registered nurse and (8) positions referred to 
in paragraphs (1) and (3) of section 7401 as the Secretary may 
determine.'' Section 7401 (3) is the section listing occupations which 
are considered to be Title 38-Title 5 hybrids and that S. 1156 expands 
to explicitly include 18 new occupations and to implicitly include all 
occupations employed at VA Medical facilities. Therefore, the Secretary 
has discretion to put hybrids in to a nurse pay system and out of the 
Title 5 pay system, know as the General Schedule (GS).
    Although the Secretary has not exercised this authority with 
current hybrids, and may not intend to use this authority, the VA 
Secretary has the right to unilaterally place the thousands of Title 
38-Title 5 hybrid employees into the nurse locality pay system if this 
legislation is enacted as drafted. Employees under the nurse locality 
pay system are only entitled to the GS nationwide pay raise not the GS 
locality pay increase. VA Medical Directors have absolute discretion to 
grant or deny the GS locality pay raise. VA Medical Directors have 
frequently denied employees under this pay system the GS locality pay 
raise. It is also not clear whether hybrid employee placed under the VA 
RN pay system would continue to be eligible for annual step increases.
    AFGE stands ready to work with the Committee to ensure that 
employees under the hybrid system are not at risk of having their pay 
eroded.

3. Veterans' preference
    Veterans' preference requirements and ``merit'' requirements apply 
to the Title 38-Title 5 hybrid system and the Title 5 competitive 
service system. However, because the hybrid system permits VA 
management maximum flexibility in hiring there are little or no checks 
against management's avoidance of hiring veterans' preference eligible 
candidates. AFGE urges greater accountability under the hybrid hiring 
system to ensure that all qualified candidates are given a fair chance 
and that veterans' preference is continued in hiring. We look forward 
to working with the Committee to ensure that the broad discretion VA is 
given for hiring under hybrid status is not abused.

4. Summary
    Because of the significant adverse consequences of converting 
thousands of employees from Title 5 personnel rules to Title 38-Title 5 
personnel rules AFGE must oppose Section 301 of S. 1156. We stand ready 
to work with the Committee to correct these serious, albeit unintended, 
problems with the Title 38-Title 5 hybrid system.

                                 S. 613

    S. 613 authorizes the Secretary to carry out major medical facility 
projects at the former Fitzsimons Army Medical Center in Aurora, 
Colorado. Projects to be carried out at the site will be selected by 
the Secretary and may include inpatient and outpatient facilities 
providing acute, sub-acute, primary, and long-term care services. The 
Secretary has two options: One is direct construction by the VA through 
a combination of direct construction and capital leasing. The other 
option is through capital leasing alone. AFGE is steadfastly opposed to 
the blanket authorization in S. 613.
    AFGE Local 2241 represents health care workers at the Denver 
facility. We are concerned that this authorization will enable the VA 
to privatize the work of many employees, including employees with 
veterans' preference, with no real enhancement in services for 
veterans.
    AFGE is adamantly opposed to any option that would essentially 
integrate Denver VA medical center patients into the patient population 
of the University of Colorado Hospital. Integrating these two entities 
by allowing VA to lease part of the facility would fundamentally change 
the way VA provides care.
    Absent from S. 613 are key elements to ensure collaboration 
benefits veterans AFGE is opposed to S. 613 because it leaves silent 
governance issues ensuring that VA leadership has direct line authority 
and accountability for veterans' health care, ensuring dedicated space 
and a distinct VA presence, ensuring that facility staff remain Federal 
(VA) medical center employees, ensuring that current VA procedures and 
policies for the provision of appropriate pharmaceuticals, supplies and 
prosthetics be maintained, and ensuring that no VA staff lose their 
jobs as a result of the integration. We believe that these issues must 
be resolved and explicit in the legislation before any authority is 
provided to proceed.

                                S. 1283

    S. 1283 gives Congress an oversight role over the VA's Capital 
Asset Realignment for Enhanced Services (CARES) planning initiative, a 
process that will likely eliminate beds and close facilities. The 
legislation allows Congress 60 days to review any actions proposed by 
the Secretary of Veterans Affairs under the CARES process. AFGE 
believes this legislation is an important first start in ensuring that 
Congress has a real say in VA capacity to provide veterans with needed 
care and services, including long-term care and treatment for substance 
abuse and mental illness.
    AFGE remains concerned that notice and 60-day reviews may not be 
adequate, given the scope of changes being proposed by the VA and the 
problems encountered in VA's phase I of CARES.
    It is our understanding that the total cost of the ``enhanced 
services'' component of the CARES proposals is at least $5.8 billion. 
Given the Administration's repeated failure to request adequate funds 
for veterans' health care, we are concerned that these enhancements 
will not be fully funded. Without funding for ``enhanced services'' 
they become empty promises after the VA has already closed beds and 
facilities, reduced staff and diminished existing programs and 
services. In addition to enacting the notice and review requirements of 
S. 1283, AFGE urges the Committee to consider adding legislation 
language to prohibit the VA from reducing any facility from 24-hour 
care to 8-hour care, or not staffing for or eliminating acute care, 
spinal cord injury, long-term care, psychiatric care, or substance 
abuse beds at any facility until funds have been authorized and 
appropriated for ``enhanced services'' under the CARES proposals. In 
short, the CARES reductions and elimination in beds and staff cannot 
occur until the VA and Congress show veterans the money for 
enhancements.
    Chairman Specter and Ranking Member Graham, thank you for bearing 
in mind AFGE's concerns and views as you consider S. 1156, S. 613 and 
S. 1283. If you or your staff would like to discuss our concerns and 
views please contact Linda Bennett, in AFGE's Legislative Department, 
at (202) 639-6456.

                               __________

    Prepared Statement of Jane Nygaard, President, AFGE Local 3669 
               and Jay Price, President, AFGE Local 1969

    Dear Chairman Specter and Ranking Member Graham: We are writing you 
today in support of S. 1282, which would allow us to name the 
Minneapolis VA Medical Center after the late Senator Paul Wellstone. As 
you know for many years Senator Paul Wellstone was a very active member 
of the Senate Veterans Affairs Committee and a strong advocate for 
veterans and the workers who cared for them.
    Senator Wellstone was passionate in advocacy for veterans. He 
listened to veterans, regularly visited our medical facility and was a 
voice for veterans in the Senate. He was a champion of the Independent 
Budget, was relentless and compassionate of the needs of vulnerable 
veterans--the homeless, the mentally ill, the frail and elderly. He 
sought vindication for veterans who had been exposed to radiation. 
Senator Wellstone's strength as an advocate lay in his humility to 
listen to veterans and his unwavering belief that our Nation would not 
and could not forget the men and women who fought for our freedoms. He 
truly cared for all veterans and they cared for him.
    I was with him when he received the National Endorsement from the 
Veterans of Foreign War. Did he deserve it? Absolutely!! He said it was 
one of the highlights of his career. Let us never forget his true 
character, someone who stood up for his convictions and supported the 
causes of those less fortunate. He was a man of his word, and he acted 
on it. Every day our members honor veterans by tending to their 
physical and emotional wounds from war. We, who work at the Minneapolis 
VAMC, think it is a fitting and just tribute to name our facility after 
a passionate and compassionate veterans' advocate, the late Senator 
Paul Wellstone.

                               __________

   Prepared Statement of Roy S. Hansen, Adjutant, Disabled American 
                   Veterans, Department of Minnesota

    Dear Senator Graham: Thank you for sponsoring the Senate Bill on 
naming the Minneapolis VA Medical Center in Honor of Senator Paul 
Wellstone, the Best Friend those of us in the Disabled American 
Veterans ever had.
    As you know we adopted a resolution to that effect at our State 
Convention in May.
    Our members, at least 80-90 percent belong to other veterans 
organizations such as the American Legion, Veterans of Foreign Wars, 
Vietnam Veterans groups and while not speaking for them, I can say we 
are representative of the 420,000 Veterans in Minnesota when I say to 
you, we all owe Senator Paul Wellstone our gratitude.
    Thank you so much.

Prepared Statement of Richard C. Schneider, National Director, Veterans 
and State Affairs, Non-Commissioned Officers Association of the United 
                           States of America

    Dear Senator Graham: The Non-Commissioned Officers Association of 
the United States of America (NCOA) fully supports the proposed 
legislation contained in Senate 1289 to rename the existing Minneapolis 
VAMC after the late Senator Paul Wellstone of Minnesota. NCOA greatly 
appreciates your leadership in this matter.
    The membership of NCOA held former Senator Wellstone in great 
esteem for legislation he championed in the U.S. Senate on behalf of 
Active Duty Military Personnel; Guard, Reserve, all American veterans, 
and the families of each group. His efforts and clarity of message on 
behalf of America's homeless veterans were monumental contributions to 
the passage of a law to end veteran homelessness in a decade.
    This Association conveyed its premier Legislative Vanguard Award to 
Senator Wellstone just prior to his untimely death in 2002. The 
Legislative Vanguard Award is the highest award that NCOA may present 
for legislative achievement on behalf of its membership.
    The proposed designation of the Minneapolis VAMC as the Paul 
Wellstone Memorial Veterans Hospital honors an individual whose 
national legislative achievements championed military and veteran 
entitlements widely recognized and of direct benefit to all who serve 
or have served.

                               __________

 Prepared Statement of Dennis Cullinan, Director, National Legislative 
                   Service, Veterans of Foreign Wars

    Dear Senator Graham: On behalf of the 2.6 million men and women of 
the Veterans of Foreign Wars of the United States (VFW) and our Ladies 
Auxiliary, I would like to offer our strong support for S. 1283, 
legislation that would rename the VA Medical Center in Minneapolis, 
Minnesota, after the late Paul Wellstone, former Senator and tireless 
advocate for America's veterans.
    Paul Wellstone constantly and consistency crusaded and championed 
for the many issues that were of vital interest to our veteran 
population. He was tenacious in his efforts to assure passage of 
legislation that would provide for those veterans suffering from 
radiation exposure, Gulf War illness, and those in need of VA health 
care.
    He took great efforts to ensure that veterans received the proper 
care and treatment they earned. Through their service in defense of 
this country. Naming this VA Medical Center is a fitting tribute to the 
long legacy he left behind after his tragic accident.
    We thank you for introducing this legislation, and we look forward 
to working with you to ensure its success.

Prepared Statement of Steve Van Bergen, State Commander, Department of 
                  Minnesota, Veterans of Foreign Wars

    Dear Senator Graham: We wish to inform you that on Saturday, July 
19th in Spring Lake Park, MN the State VFW Council of Administration 
took action on a request by our National VFW Legislative Office to 
indicate our support for your legislation to name the VA Medical Center 
in Minneapolis the ``Paul Wellstone Department of Veterans Affairs 
Medical Center''.
    The VFW Council rollcall vote was unanimous in support of your 
legislation as well as from our Ladies Auxiliary.
    Thank you for your concern.

                               __________

      Prepared Statement of Thomas H. Corey, National President, 
                      Vietnam Veterans of America

    Dear Senator Graham: On behalf of the membership of Vietnam 
Veterans of America (VV A), I express our full support of S. 1289 
renaming the Department of Veterans Affairs Medical Center in 
Minneapolis, MN after Senator Paul Wellstone.
    Senator Graham, in 2001 Wellstone led the fight for passage of 
Public Law 107-95, the Homeless Veterans Comprehensive Assistance Act 
of 2001, which he sponsored. The bill was stalled in Congress and 
Senator Wellstone held his ground and did not agree to any Senate 
conferences or bills until this legislation was passed in the Senate. 
He succeeded in his efforts and the first comprehensive legislation to 
assist homeless veterans was passed and signed by the President.
    ``Paul Wellstone was one of the most thoughtful and vocal advocates 
for veterans' affairs'', his leadership, skill, and impassioned pleas 
for justice for America's veterans will stand as a testament to his 
devotion to our country and those who defend it.
    ``If not for Senator Wellstone's tenacious leadership and dogged 
determination, the veterans exposed to ionizing radiation would never 
have gotten any redress. Senator Wellstone was one who supported 
veterans when it was tough and spent political capital to assist 
securing justice for veterans.''
    VVA would like to thank you for introducing this legislation and 
any support that you may need in securing passage of this important 
bill, please feel free to contact Rick Weidman, Director of Government 
Relations at (301) 585-4000 ext. 127.

                               __________

      Prepared Statement of Frederick Rochelle, Former President, 
             St. Paul Chapter, Vietnam Veterans of America

    Mr. Chairman, Mr. Ranking Member, and Members of the Committee. 
Thank you for giving me the opportunity to offer testimony about my 
strong and enthusiastic support in favor of S. 1289, a bill to name the 
Department of Veterans Affairs Medical Center in Minneapolis, 
Minnesota, after Paul Wellstone.
    As a veteran of both the Air Force and the Army and as a past 
President of the St. Paul Chapter of the Vietnam Veterans of America, I 
followed with great interest, Senator Wellstone's legislative efforts 
on behalf of veterans in Minnesota and around the nation. Though not a 
veteran himself, Senator Wellstone demonstrated an unparalleled 
commitment to secure veterans' benefits and even expand them to often-
overlooked populations, such as homeless and disabled vets.
    Beyond his efforts in Washington, Senator Wellstone was an active 
member among the veterans community in Minnesota. He often visited the 
Minneapolis VA Medical Center to speak with vets and determine how the 
health care system was functioning. For his efforts and involvement, 
Senator Wellstone was awarded numerous distinctions from various 
veterans service organizations, including: the 1995 Legislator of the 
Year Award from the Vietnam Veterans of America; the 1995 Patriot Award 
from the Paralyzed Veterans of America; the Congressional Leadership 
Award from the Forgotten 216th; the 1997 Distinguished Citizen Award 
from the Minnesota Veterans of Foreign Wars; the 2002 Distinguished 
Science Award from the Disabled American Veterans; the 2002 Legislative 
Leadership Award from the National Coalition for Homeless Veterans; and 
the Vanguard Award for Legislative Achievement by the Non-Commissioned 
Officers Association.
    I note that the Disabled American Veterans of Minnesota has already 
passed a resolution supporting the renaming of the Minneapolis 
facility.
    On a personal note, I will always remember Paul as the man who 
wanted to right the wrongs that have been placed upon veterans and many 
other groups of people. In Committee and on the floor of the Senate, he 
spoke with passion and conviction to make changes for who he called 
``the forgotten ones.'' He always stayed the course without regard to 
the political ramifications.
    Senator Wellstone, through his tenure, held many group and one-on-
one meetings with myself and many other of my fellow veterans to hear 
our pleas, and if it was the right thing to do, he fought with all he 
had to right the wrongs. He was honored in life by the above referenced 
veterans' groups because of what he did. Let us recognize this great 
man by renaming in his honor the Minneapolis VA Medical Center, a place 
Paul held dear to his heart.
    I urge the Members of this Committee to support and pass this 
legislation. Thank you.
  

                                  <all>

</pre></body></html>
